<html>
<title> - [H.A.S.C. No. 112-65]SUSTAINING GPS FOR NATIONAL SECURITY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                         [H.A.S.C. No. 112-65]

                  SUSTAINING GPS FOR NATIONAL SECURITY

                               __________

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON STRATEGIC FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 15, 2011



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                                  ____

                      U.S. GOVERNMENT PRINTING OFFICE

  68-466                   WASHINGTON : 2012
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2146514e614254525549444d510f424e4c0f">[email&#160;protected]</a>  




                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MICHAEL TURNER, Ohio, Chairman
TRENT FRANKS, Arizona                LORETTA SANCHEZ, California
DOUG LAMBORN, Colorado               JAMES R. LANGEVIN, Rhode Island
MO BROOKS, Alabama                   RICK LARSEN, Washington
MAC THORNBERRY, Texas                MARTIN HEINRICH, New Mexico
MIKE ROGERS, Alabama                 JOHN R. GARAMENDI, California
JOHN C. FLEMING, M.D., Louisiana     C.A. DUTCH RUPPERSBERGER, Maryland
SCOTT RIGELL, Virginia               BETTY SUTTON, Ohio
AUSTIN SCOTT, Georgia
                Tim Morrison, Professional Staff Member
                Leonor Tomero, Professional Staff Member
                 Alejandra Villarreal, Staff Assistant











                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Thursday, September 15, 2011, Sustaining GPS for National 
  Security.......................................................     1

Appendix:

Thursday, September 15, 2011.....................................    25
                              ----------                              

                      THURSDAY, SEPTEMBER 15, 2011
                  SUSTAINING GPS FOR NATIONAL SECURITY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Sanchez, Hon. Loretta, a Representative from California, Ranking 
  Member, Subcommittee on Strategic Forces.......................     5
Turner, Hon. Michael, a Representative from Ohio, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Knapp, Julius, Chief, Office of Engineering and Technology, 
  Federal Communications Commission..............................    14
Nebbia, Karl, Associate Administrator, Office of Spectrum 
  Management, National Telecommunications and Information 
  Administration, U.S. Department of Commerce....................    11
Russo, Anthony J., Director, National Coordination Office, Space-
  Based Positioning, Navigation and Training, National Oceanic 
  and Atmospheric Administration.................................    12
Shelton, Gen William L., USAF, Commander, U.S. Air Force Space 
  Command........................................................     7
Takai, Teresa M., Chief Information Officer, U.S. Department of 
  Defense........................................................     9

                                APPENDIX

Prepared Statements:

    Knapp, Julius................................................    85
    Nebbia, Karl.................................................    56
    Russo, Anthony J.............................................    71
    Sanchez, Hon. Loretta........................................    33
    Shelton, Gen William L.......................................    34
    Takai, Teresa M..............................................    49
    Turner, Hon. Michael.........................................    29

Documents Submitted for the Record:

    Deputy Secretary of Defense William J. Lynn and Deputy 
      Secretary of Transportation John D. Porcari's Letter to 
      Julius Genachowski, Federal Communications Commission 
      Chairman, Dated March 25, 2011.............................   105
    Deputy Secretary of Defense William J. Lynn's Letter to 
      Julius Genachowski, Federal Communications Commission 
      Chairman, Dated January 12, 2011...........................    97
    Federal Communications Commission Chairman Julius 
      Genachowski's Letter to Hon. Michael Turner, Chairman, 
      Subcommittee on Strategic Forces, Dated September 15, 2011.   106
    National Legal and Policy Center Chairman Ken Boehm's Letter 
      to Hon. Darrell Issa and Hon. Edolphus Towns, House 
      Committee on Oversight and Government Reform, Dated 
      February 2, 2011...........................................    98

Witness Responses to Questions Asked During the Hearing:

    Mr. Garamendi................................................   115

Questions Submitted by Members Post Hearing:

    Mr. Turner...................................................   119












 
                  SUSTAINING GPS FOR NATIONAL SECURITY

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                      Washington, DC, Thursday, September 15, 2011.
    The subcommittee met, pursuant to call, at 11:42 a.m. in 
room 2212, Rayburn House Office Building, Hon. Michael Turner 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. MICHAEL TURNER, A REPRESENTATIVE FROM 
        OHIO, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Turner. Good morning. I want to welcome everyone to the 
Strategic Forces Subcommittee hearing on sustaining GPS [Global 
Positioning System] for national security.
    I was planning to make the usual statement of appreciation 
to the witnesses for their appearance here today. And to those 
witnesses who took this issue seriously enough to be here--
General Shelton, Ms. Takai, Mr. Nebbia, Mr. Russo and Mr. 
Knapp--I do want to thank you for taking the time to be here 
and your testimony.
    That said, I have the unfortunate responsibility to inform 
the subcommittee that the Federal Communications Chairman 
Genachowski refused to appear today. I must also make clear 
that I consider the chairman's failure to show up today to be 
an affront to the House Armed Services Committee.
    Further, it appears to be symptomatic of a disregard by the 
chairman to the consequences of the FCC's [Federal 
Communications Commission] January 26th waiver to LightSquared.
    Now, we have heard that perhaps even the chairman was even 
in this very building today. We would like to know that from 
the chairman, whether or not he even came so close to this 
hearing as to be in this building and still not appear.
    At no time did the chairman offer an alternative time to 
appear. We are unaware of any issue of this being merely a 
scheduling conflict. And the chairman did say that he was 
concerned about it prejudicing the process about what he might 
say during the hearing.
    Personally, I believe this is an absolute effort by the 
chairman to avoid the oversight questions by Congress, to avoid 
the responsibility of the issue of how this will affect GPS and 
what the FCC's processes appear to be irregular as to how this 
manner is moving forward.
    So I am very concerned that the chairman has not appeared 
and has not given us, really, a very good understanding or a 
very good reasoning as to why he is not answering these 
questions.
    Now, I do appreciate the chairman is apparently willing to 
provide personal responses to written questions for the record 
submitted by the subcommittee, according to staff. But the 
chairman's priority should be the same as the subcommittee's: 
Sustaining GPS for national security.
    Now, we all understand the difference between written 
questions and in-person testimony. You don't have an ability to 
ask a follow-on question. No one else gets to hear the aspect 
of his question to have them follow a different take. This, I 
think, makes the ability of this subcommittee to get to the 
bottom of these issues and to, more importantly, advance the 
issue of sustaining GPS for national security more difficult.
    With that out of the way, I wish to introduce and express 
my appreciation to the witnesses who are here: General William 
Shelton, Commander of the Air Force Space Command. I note this 
is General Shelton's second appearance before this subcommittee 
in as many weeks. Either the General really likes us or he is 
working to accommodate us on a very strong basis. Ms. Takai, 
Chief Information Officer for the Department of Defense; Mr. 
Nebbia, Associate Administrator, Office of Spectrum Management, 
National Telecommunications and Information Administration; and 
Mr. Anthony Russo, National Coordination Office, Space-Based 
Positioning, Navigation and Training, National Oceanic and 
Atmospheric Administration; Mr. Julius Knapp, Chief of the 
Federal Communications Commission Office of Engineering and 
Technology.
    Mr. Knapp, I want to thank you for being here today. And I 
want it to be clear that neither I nor my colleagues have 
anything other than gratitude for your service. Our concerns 
are with the chairman's lack of appearance. And we certainly 
appreciate the information that you are going to provide us 
today, but we do believe that the chairman has additional 
questions that he needs to be answering.
    I want to thank all of you for being here.
    Now, why are we here this morning?
    General Shelton, you might remember this question. It was 
asked by a member of the subcommittee during the classified 
briefing you provided all of us last week on LightSquared GPS 
test results.
    And that question is, why are we here? I mean, to some 
extent this issue seems relatively clear, and yet we are still 
facing a process that is moving forward. And so that is why we 
are having this hearing today, which is to try to get some 
light on the issue of LightSquared and GPS.
    A brief recap of how we got here to the point of this 
hearing: On January 26th of this year, the FCC granted a 
conditional waiver of its own rules allowing LightSquared to 
establish a terrestrial broadbanded network and be freed of 
certain gating requirements, which were designed to keep any 
potential terrestrial service from overwhelming the satellite 
spectrum that LightSquared held.
    As we now know, this network would operate with over 40,000 
base stations operating at a frequency adjacent to that long 
used by Global Positioning System, known as GPS, at almost 5 
billion times the power of the GPS system. The chairman of the 
FCC knew that there were concerns about the proposed waiver for 
LightSquared as he received a letter from Deputy Secretary of 
Defense Bill Lynn on January 12, 2 weeks before the waiver was 
issued.
    The Deputy Secretary wrote to Mr. Genachowski that ``there 
is strong potential for interference to these critical national 
security space systems,'' referring to GPS. This letter also 
asked that the chairman pay ``personal attention on this 
matter.''
    Without objection, this letter will be made part of the 
record of this hearing.
    [The information referred to can be found in the Appendix 
on page 97.]
    Mr. Turner. We also know that National Telecommunications 
Information Administration Assistant Secretary Lawrence 
Strickling wrote to Chairman Genachowski recommending that the 
FCC not go forward with the LightSquared waiver request.
    Many have observed that the FCC followed an irregular 
process on the LightSquared waiver. First, the National Legal 
and Policy Center stated in a February 2, 2011, letter to the 
chairman and ranking member of the House Oversight and 
Government Reform Committee that ``over the course of the past 
year, a series of odd decisions, questionable meetings and 
procedural anomalies at the Federal Communications Commission 
and White House highlight Mr. Falcone's growing influence in 
the hallways of government.'' Mr. Falcone is the CEO of the 
hedge fund Harbinger Capital Partners, which owns LightSquared.
    Without objection, this letter will be made a part of the 
record.
    [The information referred to can be found in the Appendix 
on page 98.]
    Mr. Turner. Additionally, in a March letter to Chairman 
Genachowski, the Deputy Secretary of Defense, joined by the 
Deputy Secretary of Transportation noted that, ``the DOD 
[Department of Defense] and DOT [Department of Transportation] 
were not sufficiently included in the development of the 
LightSquared initial work plan and its key milestones.'' This 
letter again sought the FCC chairman's personal attention.
    Without objection, this letter will also be made a part of 
our record.
    [The information referred to can be found in the Appendix 
on page 105.]
    Mr. Turner. And just yesterday, the Center for Policy 
Integrity released a report detailing, ``emails show wireless 
firm's communications with the White House as campaign 
donations were made.''
    In my capacity as a member of the House Committee on 
Government Reform and Oversight, I will be asking Chairman Issa 
and Ranking Member Towns to promptly investigate this matter. 
We cannot afford to have Federal telecommunications policy, 
especially where it affects national security, to be made in 
the same way that the White House has parceled out a half 
billion dollars in loan guarantees to the failed Solyndra 
Corporation, a large political campaign contributor of the 
President.
    While there is clearly concern about how the FCC has 
conducted this process, those concerns are within the purview 
of the House Committee on Energy and Commerce and the House 
Committee on Oversight and Government Reform. Also, aside from 
the scope of today's hearing, but of significance and concern 
nonetheless, is the impact to GPS receiver manufacturers, like 
Trimble Navigation in my home town of Dayton, Ohio, which 
manufacturers GPS receivers for the agricultural sector and 
heavy machinery producers, like Caterpillar.
    But this subcommittee's main purview is national security. 
And the national security consequences of the LightSquared 
network are significant. As I mentioned, the concern in this 
case is that LightSquared's proposed network of 40,000 base 
stations around the U.S. which broadcast at an adjacent signal 
frequency to that used by the GPS system, but at 5 billion 
times the signal strength, will render or may render useless 
the DOD's GPS receivers.
    I think General Shelton will be telling us today that it 
does. General Shelton, Commander of the Air Force Space 
Command, informed the House Strategic Forces Subcommittee 
members in last week's briefing that ``tests show 
LightSquared's signal causes significant interference to 
military GPS.'' Simply put, if the FCC gives LightSquared the 
final go-ahead to build out this network, I fear that the DOD's 
training activities in the United States may come to an end. 
This cannot be allowed to happen. As the members of the House 
Armed Services Committee know, before U.S. troops are deployed, 
they conduct extensive real world training, which includes the 
use of GPS for orientating U.S. Forces, locating friendly 
forces and locating enemy forces, conducting search and rescue 
activities, targeting of precision-guided ordnance and calling 
in close air support. None of these activities are possible 
without DOD's high-precision GPS receivers, which would be most 
affected by the LightSquared network.
    As a Member of Congress I can think of no higher 
responsibility than making sure our U.S. military forces are 
fully trained and equipped before they are deployed overseas to 
Afghanistan, Iraq, or any place in harm's way.
    Likewise--and this is something in all of our minds close 
to the 10th anniversary of the 9/11 attacks on the United 
States--significant harmful interference to the GPS system 
would be a tremendous liability to our defense of our homeland.
    General Shelton, I recall you making this point, and I look 
forward to your comments on that today.
    The Armed Services Committee's position, as articulated by 
the Turner-Sanchez amendment to the National Defense 
Authorization Act of fiscal year 2012, is that the Federal 
Communications Commission should not grant LightSquared final 
approval of the conditional waiver granted to the company on 
January 26, 2011, until the Commission has dealt with potential 
harmful interference to DOD's GPS receivers.
    LightSquared itself has no apparent objection to this 
provision. LightSquared has been making a vigorous case for its 
$4 billion investment in its proposed network build-out of a 
new nationwide broadband service. That it is a bipartisan 
policy objective to encourage more nationwide broadband service 
and more competition as a policy is not in dispute, at least 
not before this committee.
    The question for the subcommittee today is how to evaluate 
the harm identified by the Department of Defense to its $34 
billion investment in GPS, GPS ground stations and DOD high-
precision military GPS receivers.
    Again, it is more important than how much this cost, the 
issue of what is the effect upon the warfighters who rely on 
this technology for safety and their technological edge against 
adversity. And let me state that harm to GPS, once again very 
clearly, ``tests show LightSquared's signal causes significant 
interference to military GPS.''
    As my colleagues know by now, on Tuesday of this week, the 
FCC apparently came to the same conclusion and issued a Public 
Notice that ``potential for harmful interference'' meant that 
``additional targeted testing is needed.'' I consider this to 
be the understatement of the decade. But we need to know what 
this Public Notice actually means for DOD GPS users. This may 
very well be an effort to push matters off merely a few months 
under the assumption that Congress will be distracted.
    I look forward to the testimony of the witnesses to get to 
the bottom of this matter.
    And with that, let me turn to my ranking member, Ms. 
Sanchez, who has done some excellent work on this topic and has 
been a great defender of our GPS system for the Department of 
Defense.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 29.]

   STATEMENT OF HON. LORETTA SANCHEZ, A REPRESENTATIVE FROM 
  CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON STRATEGIC FORCES

    Ms. Sanchez. Thank you, Mr. Chairman.
    And thank you to the witnesses for being here before us.
    You know, I am not really concerned, Mr. Chairman, about 
Chairman Genachowski not being before our committee today. I 
think that you and I had a very good meeting with him last 
week. And he stated some of the reasons why he really didn't 
want to be before our committee today, if you will.
    And he also sent a letter, I know, to you, which I would 
like to put into the record so that everybody can see what the 
chairman of the FCC has said with respect to this issue at this 
point.
    [The information referred to can be found in the Appendix 
on page 106.]
    Ms. Sanchez. I would like to say that it seems to me that 
this is really a fight brewing, a fight brewing out there 
between commerce, if you will, and the civilian issues that we 
face every day with respect to communicating, between people in 
particular and information sharing, et cetera, and our military 
security. And if that is the case, if this is going to be sort 
of a battle between commerce and our national security, I think 
that you and I would agree, Mr. Chairman, that I think national 
security is going to be on the top layer for, not only us and 
not only the Congress, but for Americans if they are faced with 
that ``one or the other'' solution.
    So what I think this process is about is to see if there is 
an accommodation that allows our commercial aspects to move 
forward in order to make our country as competitive as it can 
be and yet, at the same time, continue to allow us the type of 
national security that we all have worked so hard toward. And, 
you know, those types of pushes and those types of fights, if 
you will, are really what this Congress is about, and it is 
really about policy issues and really it is about Americans and 
what they decide that they want. And that is why it is 
important that we have these types of hearings and that we have 
things pretty out in the open as much as we can so that 
Americans can also see not only the type of work that the 
Congress does, but what is really at stake.
    So I do--and I want to take note that in the Congress in 
particular, there are always these judicial types of issues. 
Energy and Commerce as a committee, of course, is pushing to 
see more jobs come forward, to see new technologies come 
forward, to have communication happen. We on the military 
committee, it is our job to ensure that our national security 
is at its best.
    So I look forward to this hearing for that reason, because 
we have heard from a lot of sides. There are a lot of people 
walking the halls of Congress trying to speak to these issues.
    GPS assets, I want to say, are critical to our national 
security and to our way of life. And so I actually support the 
increase and the improvement of broadband service, but not at 
the expense of national security. So I just want people to know 
that.
    Again, I don't know that it is one or the other. There 
might be accommodations.
    But here is the issue: The issue is that we are in a time 
of limited budgets, and that we have a deep investment by our 
military and by our taxpayers with respect to the programs that 
we already have, to the devices that we have, and so anybody 
trying to do something from a commercial aspect will have to 
show us that it doesn't affect our national security and that 
if there is mitigation to be done, that that should not 
necessarily fall on the taxpayer.
    But then again, that is what public policy is about. That 
is what votes are about. That is what elections are about as we 
move forward.
    I would like to say, Mr. Turner, you and I have worked very 
well on this committee, and I don't think that we need to point 
fingers or politicize or really call into question people's 
intents or what their motives are. I hope that is not the case 
in some of the harsher language that I heard right now in your 
opening statement.
    You know, I want to do the right things, and Members of 
Congress want to do the right things. I hope that this hearing 
will give us a better understanding for several key issues.
    I also want to say another thing before I get into the 
specifics of this. A lot of questions are being placed on whose 
intent, whose motivation, et cetera, including to our military 
men and women. And I think it is right to question, but I do 
not want to see anybody smeared in this about what their 
motives or intents are, especially not our military people. So 
I just want to say that, too, to our general sitting there. I 
think it is important to have this discussion.
    This hearing, I hope, will provide us the opportunity to 
better understand key issues that we need to understand in 
making decisions: First of all, the risk and the impacts of 
LightSquared's proposed terrestrial 4G network plan and how 
that interference will affect our weapons systems; the level to 
which our military depends on GPS assets; whether the 
interference can be mitigated, and whether the fixes would 
require recertification of our weapons programs; what the 
impact is to the mission, and what those costs would be.
    It bears noting, and I think the chairman put that forward, 
that our investment from the taxpayer standpoint is almost $35 
billion. And if there is to be further testing, what that would 
look like and what the timelines would be for something like 
this.
    What the FCC's process is for deciding whether to allow 
implementation of LightSquared's proposal, and what 
consultations are ongoing with other agencies, and whether 
those agencies in their consultation, if that is being taken 
seriously by the FCC. I think that is an important point 
because, you know, some would think that they are not 
listening.
    How the interagency process will ensure that our national 
security issues are considered and resolved satisfactorily.
    I think those are the important issues, and I look forward 
to this. And again, I am glad that it is out in the open so 
that we can do away with whose intent, and who is a winner and 
loser, and really focus on our national security and our 
communication for the future for America.
    Thank you, Mr. Chairman. And I will submit my written 
testimony.
    [The prepared statement of Ms. Sanchez can be found in the 
Appendix on page 33.]
    Mr. Turner. Thank you, Ms. Sanchez.
    Without objection, the letter you referenced will be made 
part of the record, though I note I do believe that it is 
nonresponsive and ambiguous in many key respects of the 
questions that we had asked.
    I will be submitting additional questions to Chairman 
Genachowski that he has indicated that he will accept 
personally.
    As we are turning to our witnesses, I just want to 
reiterate the central purpose for this hearing: We currently 
are in a situation where DOD says that LightSquared, their 
system affects GPS and our national security. We are looking at 
this information in light of the fact that the FCC has already, 
in part, proceeded with LightSquared in a manner which would 
affect our national security, and we still understand that 
there is a process going forward with the FCC that, ultimately, 
this could go forward. So we are in the context of 
understanding its effects on national security, and I think the 
understanding--and I am looking forward to General Shelton's 
testimony--of the clarity that this is not ambiguous, that this 
affects national security and affects our GPS.
    With that, General Shelton.

STATEMENT OF GEN WILLIAM L. SHELTON, USAF, COMMANDER, U.S. AIR 
                      FORCE SPACE COMMAND

    General Shelton. Mr. Chairman, Representative Sanchez and 
distinguished members of the subcommittee, it is an honor to 
appear before you today alongside these other witnesses as the 
Commander of Air Force Space Command.
    Our command is the DOD lead for the Global Positioning 
System constellation of satellites responsible for developing, 
building, launching, and operating GPS to deliver precision, 
positioning, navigation and timing services to billions of 
military, civil and commercial users.
    Although GPS is a military-procured and operated satellite 
constellation, it is recognized as a global utility, serving 
users around the globe. In fact, its use is so ubiquitous here 
at home, I would put GPS in the category of critical 
infrastructure for the United States.
    And for our military, GPS has become an essential 
capability for a host of applications in joint operations.
    Today I appear at the subcommittee's request to discuss the 
testing conducted thus far for the proposed LightSquared 
terrestrial broadband network. The test we conducted in concert 
with the FAA [Federal Aviation Administration] was robust, with 
over 100 receivers from 24 different organizations, and it 
spanned the military, Government, aviation, precision, 
agriculture, automotive, and general-use communities. It is 
important to note that the testing was conducted using an 
actual LightSquared transmitter, broadcast filters, and 
antennas which would be used in their network.
    In addition to providing their equipment and setting it up 
to ensure an accurate test, LightSquared personnel reviewed our 
test plan to ensure it was consistent with their originally 
planned network deployment.
    The test results showed LightSquared signals, operating 
according to their originally filed deployment plan, interfere 
with every type of receiver in the test. These results were 
compiled in a report submitted through the National 
Telecommunications and Information Administration to the FCC on 
July 6th of this year.
    LightSquared has since proposed an alternative deployment 
plan, which involves lower power broadcasts and the use of only 
the lower 10 megahertz of their assigned frequencies. We 
conducted only limited testing on broadcasts in the lower 10 
alone, but precision receivers, and even some cell phones, were 
still affected. Further testing would be required to fully 
characterize the potential interference with this lower 10 
plan.
    As we move forward under NTIA's [National 
Telecommunications and Information Administration] direction in 
evaluating the latest LightSquared proposal, Air Force Space 
Command remains open to ideas on mitigation strategies, but we 
must ensure we continue to lead the world in PNT [positioning, 
navigation and timing] services and reliably support our users 
worldwide.
    In summary, based on the test results and analysis to date, 
the LightSquared network would effectively jam vital GPS 
receivers, and to our knowledge thus far, there are no 
mitigation options that would be effective in eliminating 
interference to essential GPS services in the United States.
    I thank the committee for your continued support of Air 
Force Space Command and the capabilities we provide this 
Nation, and I look forward to your questions. Thank you, sir.
    [The prepared statement of General Shelton can be found in 
the Appendix on page 34.]
    Mr. Turner. Ms. Takai.

 STATEMENT OF TERESA M. TAKAI, CHIEF INFORMATION OFFICER, U.S. 
                     DEPARTMENT OF DEFENSE

    Ms. Takai. Good morning, Chairman Turner, Ranking Member 
Sanchez, and distinguished subcommittee members, and thank you 
for the opportunity to testify regarding the importance of GPS 
to our national defense capabilities.
    My testimony today will focus on the importance of GPS 
reliability to the Department of Defense in ensuring that our 
warfighters and allies have the critical positioning, 
navigation and timing, or PNT, capabilities that they require.
    As General Shelton said, we believe the GPS stands as a 
cornerstone of the DOD PNT capability and is integrated into 
almost every aspect of our U.S. military operations. To give 
you but a few examples, GPS signals are used to ensure the 
accuracy of precision-guided munitions, to guide troop 
movements, to synchronize communication networks, and to enable 
battlespace situational awareness, and to conduct search and 
rescue missions.
    DOD is committed to sustaining and modernizing GPS to 
maintain and improve our military PNT capabilities. Several GPS 
innovations are scheduled during the next 10-plus years, 
including three new civil signals, enhanced encrypted military 
signals, and a new constellation operational control segment, 
which are scheduled to come on line by 2018 and then be 
implemented systemwide into the GPS receiver populations over 
the successive 5 or more years.
    As DOD's chief information officer, I have the collateral 
duty as the co-chair of the executive steering group of the 
National Executive Committee for Space-Based PNT, along with my 
counterpart from the Department of Transportation. The role of 
that EXCOM [executive committee] is to advise departments, 
agencies and the Executive Office of the President regarding 
strategic policies, requirements, and security of all PNT 
infrastructures, including GPS.
    In response to the January 2011 Federal Communications 
order that conditionally allowed LightSquared to unbundle their 
ancillary terrestrial component restriction in the mobile 
satellite services band adjacent to GPS, the PNT EXCOM tasked 
the National Space-Based PNT Engineering Forum, or the NPEF, to 
perform testing to ascertain the potential interference. As 
General Shelton mentioned, that testing was performed at White 
Sands Missile Range in Holloman Air Force Base in New Mexico.
    That report was completed on June 15th of 2011 and then 
submitted to NTIA for their review and transmitted to FCC. The 
test data indicated that proposed LightSquared terrestrial 
operations would cause harmful interference to GPS operations. 
GPS receivers of various types of manufacturer, operated not 
just by DOD but by the U.S. Coast Guard, the Federal Aviation 
Administration, the State of New Mexico Public Safety, 
commercial aviation, and precision farming systems showed 
varying degrees of degradation of GPS accuracy, interruptions 
to GPS signal acquisition, or total loss of GPS tracking and 
position.
    None of the parties cognizant of the NPEF testing dispute 
that the LightSquared terrestrial network plan that was tested 
by NPEF caused unacceptable levels of harmful interference to 
GPS. The testing also showed a source of interference that was 
due to the combined effect of the LightSquared dual-channel 
signal. This inter-modulation product was generated on top of 
the GPS L1 signal in its GPS band, interfering with GPS 
receivers. This IMP [inter-modulation product] was caused by 
the LightSquared dual-channel choice and its design, and not by 
the designs or filtering limitations of the GPS receivers.
    Subsequently, LightSquared and the GPS industry filed their 
Technical Working Group report. That report also does not 
contest the NPEF results, nor does it offer a mitigation 
solution of the IMP interference. Instead, as has been 
mentioned, LightSquared proposed to the FCC the recommendation 
of an alternative terrestrial network that was not in the test 
plans of either the NPEF or TWG [Technical Working Group] tests 
and was not tested to any extent comparable to the dual-channel 
tests.
    LightSquared's modified proposal recommends launching 
commercial services initially in only their lower 10 megahertz. 
DOD at this time has not received a sufficiently clear and 
complete description of a LightSquared lower 10 megahertz 
deployment plan to professionally analyze its new aggregate 
interference environment.
    In addition, we are evaluating the effects of 
LightSquared's terrestrial transmissions on the military's use 
of the Inmarsat satellite systems for data and voice 
communication. The LightSquared terrestrial system will 
interfere with DOD usage if Inmarsat if appropriate mitigation 
actions are not taken.
    We are diligently working with Inmarsat to identify 
mitigating techniques for reducing the potential interference 
for military, land, maritime, and aeronautical missions and 
communication requirements.
    The Department will continue to work with its 
administration partners and NTIA, as well as with Congress, to 
address long-term solutions regarding the balance between 
Federal spectrum requirements and the expanding demand for 
mobile broadband services. We look forward to working with the 
FCC, NTIA, and LightSquared to ensure that all further proposed 
mitigations or alternatives for the LightSquared terrestrial 
network are thoroughly tested to ensure no harmful interference 
to GPS receivers or other military spectrum requirements. The 
ability of GPS to operate without harmful interference remains 
of paramount importance to the Department. Thank you for your 
interest in the Department's efforts in this area, and I would 
be glad to answer any questions that you have.
    [The prepared statement of Ms. Takai can be found in the 
Appendix on page 49.]
    Mr. Turner. Mr. Nebbia.

 STATEMENT OF KARL NEBBIA, ASSOCIATE ADMINISTRATOR, OFFICE OF 
     SPECTRUM MANAGEMENT, NATIONAL TELECOMMUNICATIONS AND 
    INFORMATION ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Mr. Nebbia. Chairman Turner, Ranking Member Sanchez, and 
members of the subcommittee, thank you for the opportunity to 
testify on behalf of the National Telecommunications and 
Information Administration, the President's principal advisor 
on telecommunications and information policy, and manager of 
Federal use of the radio spectrum.
    As Associate Administrator for the Office of Spectrum 
Management, I oversee this critical spectrum function. I am 
pleased to discuss NTIA's efforts to ensure that critical uses 
of GPS continue without interference.
    In November of last year, LightSquared proposed to modify 
its authorization for a mobile satellite service auxiliary 
terrestrial component previously understood to be a satellite 
service gap filler. This proposal requested authorization to 
deploy, on a wholesale basis, a nationwide terrestrial network 
with handsets that do not connect to the satellite system. 
These operations would occur in two spectrum bands on either 
side of the GPS range, with two signals within each of these 
two bands.
    This proposal represented the potential for increased 
mobile broadband capacity and choice for all Americans. 
However, LightSquared's proposal generated concern from the GPS 
community that the network would cause interference to GPS 
receivers. These concerns did not arise from LightSquared's 
emissions spilling into the GPS band, but from the fact that 
some GPS receivers would not adequately filter LightSquared 
signals outside of the GPS band. Also, some other GPS 
receivers, including precision receivers, improved their 
accuracy by extending into the MSS [Mobile Satellite Services] 
band.
    On January 12th, NTIA advised the FCC that the Federal 
agency concerns warranted a full evaluation. On the 26th of 
January, the Commission granted LightSquared a waiver 
conditioned on consultation with NTIA and the resolution of GPS 
interference concerns. Between January and June, a Technical 
Working Group co-chaired by LightSquared and the GPS Industry 
Council; NASA [National Aeronautics and Space Administration], 
via the Jet Propulsion Lab; RTCA [Radio Technical Commission 
for Aeronautics], on behalf of aviation interests; and the 
Executive Committee for Space-Based Positioning, Navigation and 
Timing, the EXCOM, all conducted tests of GPS devices in the 
presence of LightSquared signals. These tests were based on 
LightSquared's original plan to transmit two separate 10 
megahertz base station signals within the band just below GPS.
    On July 6th, NTIA submitted the results of the EXCOM test 
showing that LightSquared's proposed operations would cause 
interference to both Government and commercial GPS uses. NTIA 
recommended that the FCC continue to withhold authorization to 
commence commercial operations. The report of the Technical 
Working Group reached similar conclusions.
    As a result, LightSquared proposed to modify its plan and 
use only the lower 10 megahertz channel. This change came too 
late for full testing and evaluation by Federal agencies and 
raised concern about applying critical resources to an evolving 
proposal.
    NTIA and the Federal agencies have been reviewing the test 
data to determine whether the use of the lower 10 megahertz 
would eliminate interference to general navigation and cellular 
GPS receivers, and whether additional testing and analyses are 
needed.
    Everyone agrees that some timing and precision devices will 
receive interference even if LightSquared uses only the lower 
10 megahertz. Therefore, for those applications, some other 
mitigation technique will have to be developed and tested.
    Last week NTIA requested that the EXCOM work with 
LightSquared to develop a test plan to study, by November 30th, 
remaining concerns for general navigation and cellular 
receivers, and we have provided that document as an exhibit 
within our testimony.
    Meanwhile, LightSquared is pursuing the design and 
manufacture of a filter to mitigate impacts to precision 
receivers. With respect to timing receivers, LightSquared has 
identified an antenna with filter characteristics that may 
provide a possible solution.
    LightSquared has agreed that it will not commence 
commercial operations until the Federal agencies test these 
techniques and conclude that they prevent interference without 
degrading the performance of the receivers.
    The Administration intends to protect critical and national 
security-relevant GPS services. Due to the need for additional 
spectrum for mobile broadband, we will try to resolve these 
interference issues to maximize use of the band.
    We will, in coordination with the FCC, work to complete the 
required testing or analysis and determine what strategies can 
provide workable solutions. We await LightSquared's delivery of 
a filter for the high-precision receivers and will seek prompt 
agency testing and analysis of that solution when it arrives.
    LightSquared has submitted a new proposal to the Commission 
seeking to protect GPS operations based on an agreed signal 
level on the ground. We will also review this approach as we 
move forward.
    In coordination with the Federal agencies, we will provide 
thorough and expert input to this dialogue so that the American 
public can extract the greatest possible benefit from the radio 
spectrum.
    Thank you again for the opportunity to testify, and I am 
pleased to take your questions.
    [The prepared statement of Mr. Nebbia can be found in the 
Appendix on page 56.]
    Mr. Turner. Mr. Russo.

STATEMENT OF ANTHONY J. RUSSO, DIRECTOR, NATIONAL COORDINATION 
   OFFICE, SPACE-BASED POSITIONING, NAVIGATION AND TRAINING, 
        NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

    Mr. Russo. Chairman Turner, Ranking Member Sanchez, and 
distinguished members of the subcommittee, thank you for this 
opportunity to appear before you.
    The Global Positioning System has grown into a worldwide 
utility whose multi-use services are integral to our national 
and homeland security. Services dependent on GPS information 
are now an engine for economic growth and improve both the 
safety and the quality of life. The system is essential to 
first responders and a key component to multiple critical 
infrastructure sectors.
    Since 1983, the United States has had a multi-use policy in 
place for GPS. This policy has had strong bipartisan support, 
and each successive administration has strengthened the 
interagency participation in the program. In 2004, President 
Bush issued a policy establishing a deputy secretary-level 
executive committee, or EXCOM, to advise and coordinate on GPS 
issues. Last year, President Obama signed a comprehensive 
National Space Policy which left this EXCOM structure in place 
but added emphasis and additional guidance in four key areas 
related to GPS, and specifically addressed the issue of GPS 
interference. This policy also directs the identification of 
impacts to Government space systems prior to any reallocation 
of spectrum for commercial, Federal, or shared use.
    To execute the staff functions of the EXCOM and to assist 
them in ensuring implementation of the President's policy 
objectives, a National Coordination Office was established with 
representatives from every department or agency with major 
equities in GPS. I am the director of this interagency office.
    On the 26th of January of this year, the FCC approved a 
conditional waiver for LightSquared's high-powered broadband 
network that the executive committee had warned might cause 
significant interference to GPS applications. And with the 
permission of the executive committee, I tasked interagency 
working group called the NPEF to conduct modeling, simulation, 
analysis, bench testing, chamber testing, and live sky testing 
to evaluate the effects of LightSquared's transmissions on GPS 
receivers.
    The group was co-chaired by leaders in FAA and the Air 
Force, but with supporting technical representatives from 
across the interagency. And despite the numerous limitations 
and constraints that I have listed for you in my written 
testimony, the NPEF was able to complete the job they were 
asked to do. They evaluated a wide range of representative 
receivers against all three phases of LightSquared's proposed 
deployment.
    The answer is definitive: LightSquared's proposed system 
will create harmful interference. The NPEF could not identify 
any feasible option that would mitigate harmful interference 
for all, or even most, GPS users and still allow LightSquared 
to meet their system requirements.
    Now, when the FCC granted the conditional waiver, they 
directed the creation of a LightSquared-led working group to 
conduct tests and resolve the interference concerns that the 
EXCOM had raised. The FCC highly encouraged participation from 
the Government, so 10 of our best technical experts from across 
the interagency participated in this Technical Working Group, 
or TWG, along with strong representation from across the 
diverse GPS industry. The test results collected and analyzed 
by this TWG were consistent with the results of the Government 
NPEF test.
    On June 29th, LightSquared submitted their TWG report 
acknowledging the harmful interference their system would 
create. And simultaneously, LightSquared submitted a separate 
recommendations report outlining a proposed three-part 
solution. The LightSquared recommendation report was not 
reviewed or evaluated by the TWG, and all 10 of the Government 
participants disagree with the assertion it makes about TWG 
results.
    LightSquared's three-part proposal is very constructive and 
involves both lower authorized power and a rephasing of their 
deployment so that the channel further from the border of GPS 
comes first. This would decrease, but not eliminate, the number 
and extent of initial impacts to GPS devices and allow more 
time for the development of mitigation methods.
    This new initial phase was not tested by the Government, 
since it wasn't proposed until after we had submitted our 
results. But yesterday, I did receive permission from the 
executive committee to begin a new round of testing focused on 
this new signal configuration.
    In LightSquared's new proposal, they offered a standstill 
for operating their second higher frequency channel, which does 
impact all classes of GPS receivers. Now, just when they would 
need to use the second channel was undefined. However, 
LightSquared testified to Congress they were seeking a glide 
path to using it within 2 to 3 years. Therefore, any necessary 
mitigation measures would have to be in place by that 
timeframe.
    Further study is needed, and in progress, on the most 
recent LightSquared proposals, and my office will support these 
studies. I thank you for this opportunity to speak on this 
issue of great strategic importance to the Nation and to over a 
billion worldwide users of GPS. I look forward to your 
questions.
    [The prepared statement of Mr. Russo can be found in the 
Appendix on page 71.]
    Mr. Turner. Mr. Knapp.

  STATEMENT OF JULIUS KNAPP, CHIEF, OFFICE OF ENGINEERING AND 
         TECHNOLOGY, FEDERAL COMMUNICATIONS COMMISSION

    Mr. Knapp. Good afternoon, Chairman Turner, Ranking Member 
Sanchez, and members of the subcommittee.
    My name is Julius Knapp, and I am chief of the Federal 
Communications Commission Office of Engineering and Technology, 
where I have been an engineer for 37 years.
    OET [Office of Engineering and Technology] is the 
Commission's primary resource for engineering expertise and 
provides technical support to the chairman, commissioners, and 
the FCC's bureaus and offices.
    I appreciate the opportunity to testify on behalf of the 
Commission concerning the process for working with other 
agencies to resolve spectrum interference issues and on 
LightSquared. The FCC has managed America's commercial spectrum 
since 1934, although our predecessor agencies were operating 
since 1912. We have nearly 100 years of accumulated experience 
in governing airways and ensuring that the services using our 
Nation's valuable spectrum do not cause harmful interference to 
one another. This work is a central part of our core mission.
    As you are aware, the FCC and the NTIA share responsibility 
for managing the radio spectrum. While the FCC is responsible 
for use of the spectrum by the commercial sector, as well as 
State and local governments, the NTIA is responsible for use by 
the Federal Government, including the Department of Defense. 
The FCC and NTIA have coordinated use of the spectrum by 
various services, and prevented and resolved harmful 
interference under a memorandum of understanding that has 
worked effectively for more than 70 years.
    My written testimony provides historical background on the 
development of rules for the ancillary terrestrial component 
service of the Mobile Satellite Service. There are two brief 
points I would like to make. First, the provisions for 
terrestrial service were first adopted in 2003 and affirmed in 
2005 in an open rulemaking, in which GPS interference issues 
were considered.
    Second, an authorization was granted to LightSquared's 
predecessors in 2004 to offer ancillary terrestrial service in 
the L-Band spectrum adjacent to GPS. The Commission, in January 
2011, granted LightSquared a conditional waiver of the rule 
requiring an integrated satellite and terrestrial service. 
Under this conditional waiver, customers of LightSquared's 
wholesale mobile satellite and terrestrial service could 
themselves offer standalone terrestrial service at retail, 
provided LightSquared itself offers only a fully integrated 
terrestrial and satellite service.
    The waiver did not alter any of the provisions governing 
LightSquared's terrestrial network and continued to require 
LightSquared to provide a robust satellite service consistent 
with the launch of its new satellite last November.
    After LightSquared submitted its request, the GPS industry, 
the NTIA, and other Federal agencies raised strong concerns 
that LightSquared's base stations operating adjacent to the GPS 
band would cause overload interference to GPS receivers. This 
was a new issue that had not come up previously.
    Accordingly, the conditional waiver stipulated that 
LightSquared could not provide commercial service until the 
Commission, in consultation with NTIA and working with the 
agencies, is satisfied that the concerns about potential or 
harmful interference to GPS have been resolved. The conditional 
waiver also directed LightSquared to organize and participate 
in a GPS interference Technical Working Group, in which 
interested parties could work directly with LightSquared to 
resolve potential GPS harmful interference concerns. 
LightSquared filed the final report of the Technical Working 
Group on June 30th, and the public comment period on that 
closed on August 15th, although we have continued to meet with 
all of the parties.
    Based on the results of the working group's testing, 
LightSquared submitted its recommendations to address the 
interference problems. LightSquared, recognizing that the upper 
portion of its band significantly interfered with GPS 
receivers, proposed to operate only in the lower portion of its 
band furthest away from GPS. Earlier this week, the 
Commission's international bureau and the Office of Engineering 
and Technology released a Public Notice which reflects the 
Commission's determination, in consultation with the NTIA, that 
additional targeted testing is needed to ensure that any 
potential interference from commercial services offered by 
LightSquared do not cause harmful interference of GPS.
    In closing, I want to make absolutely clear that, as 
Chairman Genachowski has said, and I believe it is in his 
letter as well, the Commission will not authorize LightSquared 
to begin commercial service if its operation would cause 
harmful interference to GPS. The Commission and its staff would 
never take, and have never taken, an action that would threaten 
the safety or security of American citizens.
    We will continue to work closely with the NTIA, the 
Department of Defense, and the Federal agencies to assess 
LightSquared's latest proposal and determine the viability of 
technical solutions that would enable both services to coexist. 
We would be certainly happy to keep the committee informed of 
our progress, and I look forward to answering any of your 
questions. Thank you.
    [The prepared statement of Mr. Knapp can be found in the 
Appendix on page 85.]
    Mr. Turner. Thank you so much, Mr. Knapp.
    I appreciate your statement of that commitment. That is 
why, of course, we are having this hearing. And we have four 
witnesses before you who said that this system absolutely 
affects our national security and our GPS, upon which we are 
reliant, and so as we said before, we are certainly looking 
forward to this being resolved so we can all have that 
confidence that the FCC will recognize the clear and 
unambiguous statements of the four people that spoke before 
you.
    General Shelton, you have been just incredible in helping 
this committee to try to understand this and to come up to 
speed on it. As we look to GPS, the operations of our military, 
we look to you, the technical experts, to come and tell us, in 
balancing these issues of technical capabilities, is there an 
impact to our national security, and is there an impact to the 
GPS on which we rely?
    We appreciate your very clear statements and your 
dedication in looking at testing and engineering requirements 
so that when you have provided us your conclusion, that we can 
all be confident in it.
    In your prepared testimony you state, ``testing showed 
unacceptable interference to all 33 high-performance receivers, 
as well as certain military receivers, tested in the vicinity 
of the LightSquared low band transmitter.''
    In our classified briefing, you provided us with some 
slides that are unclassified, and I have those here, and I 
appreciate this representation of showing the interference that 
is coming from the terrestrial system upon the GPS's frequency. 
And I ask that this slide be included in the record of today 
that shows that this encouragement or interference is really 
the area where we start to see the problems in the operations 
for GPS.
    And then also, on slide 11, which comments on the proposal 
of the lower 10 channel, your statement on this slide is, ``not 
acceptable, based upon initial test results from both the 
Engineering Forum and Industry Council reports,'' and then you 
say more tests needed. I note, in your written testimony you 
state, similarly, clearly this affects GPS even at their 
proposal of the lower 10. So, with that, knowing that, both in 
your testimony and the slide, there is a statement of 
``additional testing needed,'' could you please tell us, going 
forward, what would be the path for evaluating this option of 
the lower 10 that is proposed by LightSquared?
    And from what you have seen so far, what is your opinion as 
to whether or not this is at all even a realistic option as you 
continue to test it?
    General.
    General Shelton. Mr. Chairman, as we looked at that under 
the previous testing we saw, certainly, interference even with 
the lower 10. The TWG saw the same thing. They saw interference 
in certain types of receivers--not all--but certain types of 
receivers. The latest direction from the NTIA--and Mr. Nebbia 
may want to talk more about this--but the latest direction is 
to not test the high-precision receivers and the timing 
receivers just yet because there are some mitigation options 
that have been proposed, but aren't quite yet ready for prime 
time; that is, filters on the high-precision receivers and a 
special antenna on the timing receivers. We----
    Mr. Turner. Now, before you go forward, I want you to 
finish, so don't lose your thought process there, but to 
clarify the issue of the filters, the filters are something 
that you would have to do, not that they would have to do, 
right? I mean, it doesn't go on LightSquared's system? It goes 
on your system?
    General Shelton. It does. LightSquared has proposed that 
they could develop these filters.
    Mr. Turner. And then you would have to put this in 
everything?
    General Shelton. Absolutely. Every precision receiver would 
have to be retrofitted. How that might affect the overall 
platform that it is on is an unknown.
    Mr. Turner. And the concepts of any time that you are 
modifying these systems, you add the issue of vulnerability to 
the systems and all type of unintended consequences that we 
can't be certain of, including the enormous cost that you would 
be facing.
    General Shelton. Enormous cost, time, integration testing 
to thoroughly wring out these filters, if they are technically 
feasible. And even with that, because there is a difference of 
opinion, technical difference of opinion here, we believe that 
the precision of those receivers would be impacted even in the 
presence of that filter. There is, without getting too 
technical here, there is a center frequency, and then there are 
harmonics off that center frequency. It is those harmonics that 
go out among other frequencies that are important for the 
precision of those wideband receivers, if you will. Clipping 
off those harmonics decreases the accuracy of the receiver. If 
there is something else magic out there, we don't know about 
it.
    Mr. Turner. And that is an interesting point, because 
certainly you are very aware of the existing engineering, that 
the technology that is there--so to summarize for a moment, 
what we have here is your unambiguous statement that 
LightSquared system interferes. The two options that have been 
proposed, the lower 10 is one that does not ameliorate the 
interference, and the filters, both of which at this point seem 
to be unacceptable options from your testimony.
    And then I have to ask you a question that is, I think, a 
little bit amusing, and I would like your thoughts or 
reactions. We are going to go a little bit from the technical. 
As you know, while we were sitting in the classified briefing, 
one of the Members brought with them this giant ad in Politico 
by LightSquared. And this ad says, ``Excuse me, you are in my 
space.'' And in this picture, they have got these two guys on a 
train and the one guy is leaning over in the other guy's space. 
I think the guy who is infringing on the space is supposed to 
be DOD and commercial users.
    I think they are trying to indicate, General, that this may 
be you on the train going into LightSquared's space. And this--
it was odd in the tone of the ad, because again it is not that 
it is an issue of technical clarity; it was an ad of blame. And 
so I have some questions for you. LightSquared argues that in 
this ad they say, ``They're causing the problem. They've 
ignored government standards for eight years. They're taking 
advantage of an $18 billion subsidy.''
    General, can I have your thoughts on these allegations? I 
know you have seen the ad, too, and I think it is just very 
curious, and I would just love your response.
    General Shelton. Mr. Chairman, the frequency band that we 
are talking about here has, by FCC rulings in the past, has 
always been intended to be a ``quiet neighborhood,'' that GPS 
could coexist with other signals of the same magnitude. GPS is 
a very weak signal coming from space. It is a spread spectrum 
signal. It takes very special processing by receivers to pull 
that signal out of the background noise. If you have signals of 
a similar strength to GPS, that is not a problem for the 
receiver. However, if you put a rock band in the middle of that 
very quiet neighborhood, it is a very different sort of 
circumstance.
    Does that reach into the spectrum that LightSquared was 
assigned? Absolutely, it does, but that was intentional in the 
design of the GPS receivers to, again, take those harmonics 
that stretch out. So to say that the manufacturers aren't 
adhering to a standard, if you look at what we think they are 
considering to be the standard, that standard is about 
broadcasts from the satellite, not about receiver design.
    Mr. Turner. Well, I just want to point out also, then, my 
interpretation of this graphic picture here, because I think 
what is happening is not just that it is actually DOD and GPS 
users that are being pushed away; with the LightSquared system, 
according to current testing, no one else would be allowed on 
the bus. So we are not even trying to share space. We are 
having one completely block out the other.
    I have additional questions. I know other members do. But I 
will turn at this time to the ranking member.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Thank you again to the witnesses.
    General, could you elaborate on the impact of redesigning, 
manufacturing, testing, integrating, modifying cost and time on 
everything that would be affected if you--if there was a 
technical solution to this and there was a prototype that 
actually worked and you were convinced it worked, what would be 
the timing and the cost, in your opinion, to DOD to fix just 
our stuff that needs to work, continue to work?
    General Shelton. We have not estimated costs. However, I 
think it would be very safe to say that the cost would be in 
the B's, billions of dollars. We believe that the timing would 
probably be a decade or more to accomplish all this.
    And the reason for that is, there are probably a million 
GPS receivers out there in the military. Maybe even more than 
that. But again, its use is so ubiquitous in weapons, in high-
performance platforms, in timing of computer networks and all 
those sorts of applications that we take advantage of the GPS 
signal. We would have to install this filter--again, if it is 
technically feasible--we would have to thoroughly test it. We 
might even have to do software modifications to accommodate it. 
I mean, there is just a whole bevy of questions that are 
unanswered at this point.
    Ms. Sanchez. Thank you. Thank you.
    Mr. Knapp, would the FCC be the one who addresses the 
question of who would pay for all this fix?
    Mr. Knapp. The first focus is on, do you have a fix that 
works, and how could it be implemented, and is it viable? And, 
certainly, the judgments relative to the military systems would 
have to be by Department of Defense.
    Whether there is a way to pay for that and the timing of 
it, we would have to be working with the parties to see if 
there is a viable solution.
    Ms. Sanchez. Mr. Nebbia, given the technical complexities 
and, as you probably can tell, the political sensitivities that 
are arising, can you assure this committee that you and your 
colleagues have the right ability and the right process to 
effectively analyze and resolve this issue? What is your 
comfort level? Because this is going to come to a head here 
some time.
    Mr. Nebbia. Thank you, Ranking Member Sanchez.
    We certainly have an ability within NTIA to work with the 
Federal agencies, including the General's team, who are experts 
in dealing with GPS issues. There are quite a number of 
agencies, including experts within the Department of 
Transportation, NASA, and others. And certainly, under the 
coordinated effort of the EXCOM, we have a significant resource 
there to delve into these issues.
    It is critical for us--I really can't speak to the 
political issues in that sense--but that we work through the 
factual and technical issues. That is what our team can do. We 
can look at the technical problems that have arisen from this 
proposal, and we can work through that through real testing, 
through analysis, through modeling, to come up with answers. So 
I think in that process we have, certainly, adequate 
involvement of various Federal agencies. We have done a lot of 
consultation back and forth with the Commission. We have the 
Interdepartment Radio Avisory Committee, a committee of Federal 
agencies, that supports us, in addition to the EXCOM that has 
provided able input. So I think the ability there is to work 
through it and to look for what solutions are, in fact, 
available in the end.
    Ms. Sanchez. Thank you.
    General Shelton, according to the FCC and LightSquared, 
neither DOD nor GPS raised any concerns during the multiyear 
process. Would you take this opportunity to fully explain why 
it took so long for the Department and GPS to respond to the 
significant terrestrial network?
    General Shelton. Yes, ma'am. I don't know that it is 
totally accurate to say that there were no concerns. I think 
this was a very different business plan that was put forward, 
and I do believe we were caught a bit off guard. The network 
proposed originally was a space-based network, and then it was 
space augmented by ground and then it became principally 
ground. A very significant shift: 40,000 transmitters out there 
is a very different business plan than just a few augmentation 
transmitters.
    Ms. Sanchez. And when did you really kind of start sticking 
your foot in and say, ``Wait a minute, something is wrong here, 
we need to be involved here''? At what point in this 8-year----
    General Shelton. About January 2011, the January-February 
timeframe this year is when we really started to get concerned.
    Ms. Sanchez. And the last question--I know there are plenty 
of members here who have questions. It is very well attended 
here. The last question I have for all of you very quickly, do 
you all each individually feel that your agencies have the 
ability to work through this and that the interagency 
communication and listening to each other is happening or do 
you think there are breakdowns?
    General Shelton. I think we have got good representation.
    Ms. Takai. I would agree with General Shelton.
    I think it is important to note that the PNT EXCOM has 
really been the focal point for all of our discussion. And we 
have done that very deliberately because it does include 
representation from all of the parties. And I think being able 
to work through that committee enables us to look at all of the 
interests. And I think one of the interests that we haven't 
talked about a lot here is our partnership with DOT and making 
sure that we have the FAA concerns adequately registered as 
well, because we are very dependent upon the commercial, and it 
is very important that we have them included. So I think using 
the PNT EXCOM and then having the close cooperation with NTIA 
and FCC gives us the ability to have the open dialogue that we 
need.
    Ms. Sanchez. Thank you.
    Mr. Nebbia. I agree. I think I already gave an answer along 
this line. So I will just pass on to Tony and put him in the 
hot seat.
    Mr. Russo. Well, I concur with the other speakers.
    We do have very strong participation from all of the 
departments and agencies that are affected, and at very high 
levels. We have had assistant secretaries, under secretaries, 
deputy secretaries, personally working on this issue.
    One area of caution I would have is that the technical 
expertise on this mostly resides with General Shelton's folks. 
We have a lot of people that are users of GPS but don't 
necessarily understand how the black box works. So they can 
tell you how important it is to their operation, but when it 
gets down to the very detailed technical discussions with 
LightSquared, we need help from the Air Force.
    Mr. Knapp. I feel very confident in the process that we 
have in place. What we have tried to do is engage all of the 
experts in this.
    We have had many tough problems before, I know in my 
career, and at times, they have seemed unsolvable. You work 
through it. You have a debate, and wherever the chips fall 
based on the engineering is where it will come out.
    Ms. Sanchez. Thank you, Mr. Knapp.
    And thank you, Mr. Chairman. I will yield back.
    Mr. Turner. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    General, Madam, Mr. Russo.
    Mr. Knapp, thank you for your statement that you would not 
allow anything that would interfere with national security come 
through with the FCC.
    I want to go back to this letter. Mr. Nebbia, is that 
correct? Is that how I say it? I am somewhat--I have read this 
letter and just briefly.
    But I want to read one of the sentences. ``Without waiting 
for the interference issues to be resolved relating to high-
precision and timing receivers, we would like to move forward 
to reach resolution of any remaining federal agency concerns 
with respect to the cellular and personal/general-navigation 
receivers.'' This is from--and it says to contact you if there 
are any questions.
    And it is signed by Lawrence Strickling, who I don't know.
    But I have been in politics for 14 years. I have never seen 
an agency advocate so strongly for something like this, unless 
there was pressure from above or a relationship that was not 
being disclosed. And I guess I would like for you to explain to 
me why your agency is advocating with the strength, and going 
to the lengths that you are, in advocating for this private 
company when you have got a general sitting there--and you are 
a graduate of the Naval Academy, as I understand. You have got 
a general sitting there saying that what these people are doing 
will affect national security, and yet we have got a Federal 
agency that is advocating on behalf of a private business. Why 
should the taxpayers be paying to prove these things? Why 
shouldn't that private company be bearing the burden of the 
expenses?
    Mr. Nebbia. Thank you. Certainly, in this case, there is an 
effort on both sides to come to a resolution.
    I would not characterize NTIA's efforts on this part in any 
way as advocacy, as one side or another but, in fact, to move 
the proper people into place to work on the issue. We have had 
to bring together agencies on our side, get together with the 
Commission, talk to the GPS Industry Council, work with 
LightSquared, and so on.
    In this particular case, the situation we have is that we 
know that there has been a proposed fix for a certain number of 
the categories of GPS uses that will not be available for some 
time. Our purpose here was to try to move the ball forward on 
the other parts that we felt could be worked on at this point, 
as opposed to waiting until some later date and getting back 
into it. So we still have that difficulty ahead of us. The 
precision uses, the timing uses will still have to be dealt 
with in the time to come. But it seemed like an opportunity, 
before then, for us to work specifically on these issues. The 
agency----
    Mr. Scott. Sir, I am down to about 2 minutes. Can you give 
me another example of where your agency, the agency that you 
work for, has advocated on behalf of a company, that the 
Department of Defense has said that this particular issue 
affects national security? Can you give me another example of 
where your agency has written a letter with similar language, 
without waiting for these issues to be resolved, that you want 
the other agencies to move ahead with licensing this? Can you 
give me an example of another company that you all have 
advocated for to that level and strength?
    Mr. Nebbia. Actually, the letter does not ask for us to 
move ahead with licensing. It is moving ahead in this process 
of testing. The NTIA regularly deals with difficult situations 
in looking at new commercial interests and demands for radio 
spectrum and the fact that, in some cases, we have to be 
looking at spectrum currently occupied by the military. We are 
engaged in that at this time. We have been engaged in it in the 
past.
    In this particular case, the fact that it involves one 
company in this band, I can't say whether that is usual or 
unusual. We generally are dealing with issues of broad issue 
and broad policy.
    Mr. Scott. Sir, the letter reads ``move forward to reach 
resolution of any remaining Federal agency concerns.'' I have 
never seen an agency, a State agency or a Federal agency, 
advocate that strongly on behalf of any private sector company, 
unless somebody's wheel was getting greased.
    I mean, the fact that we are even here having this 
discussion, I think, is absolutely ridiculous.
    And, Mr. Knapp, I want to thank you for the commitment that 
the FCC will not allow the licensing of anything that will 
affect our national security.
    General, I want to thank you for the work that you have 
done on this to protect America.
    I yield back.
    Mr. Turner. Thank you.
    Mr. Garamendi and Dr. Fleming also would like to go before 
the votes.
    And if that is the case, then what we will do is, if these 
two gentlemen can complete in the time in which we need to go, 
we will conclude the hearing, and we will submit the remainder 
of our questions for the record.
    Mr. Garamendi.
    Mr. Garamendi. Perhaps the best way for me to proceed is 
not to ask a question but, rather, to state what I believe to 
be the situation. We have a very, very important system in 
place, the GPS system. It involves all types of activities, all 
of which have been mentioned here. It is, therefore, extremely 
important, in my view, that that system, in all of its various 
ways, be protected.
    This goes to you, Mr. Knapp. It is not just the national 
security through the military. It is the economic security and 
the personal security of Americans and others around the world 
that are at risk here.
    So I would suggest in every way I can that you look way 
beyond just the national security. My questions would go to 
that area.
    Secondly, this is going to be a very expensive process of 
testing. We have a new company entering space occupied by 
others. It seems to me that that new company ought to bear the 
full cost of proving that it is not harming others.
    It appears to me that is not the case. I have not heard 
anything from any of you that the company is paying for the 
testing that, it seems to me, is going to be both extensive and 
expensive.
    And I would like all of you to comment in writing about 
what your costs of testing will be and where in your budgets 
you have that money, or whether it is best that the new company 
that wants to occupy this space should pay for the testing.
    The subsequent question is, if the testing proves that 
certain things can be done--antennas or filters--who, then, 
pays for putting those into effect?
    And I would like to have a written response from all of 
you. Thank you.
    [The information referred to can be found in the Appendix 
on page 115.]
    Mr. Turner. Mr. Garamendi, thank you so much for your brief 
statement.
    Dr. Fleming.
    Dr. Fleming. Thank you, Mr. Chairman.
    I will try to be brief also. I came in a little bit late 
because I had another HASC [House Armed Services Committee] 
meeting that overlapped with this one.
    What I basically would like to know in a nutshell, just 
frame, how did we get here on this? I know General Shelton made 
reference to the fact that the company originally was going to 
be primarily space-based and not terrestrially based, but it 
reversed over time. Perhaps engineering, science led us to go 
in that direction.
    So can you give me a better explanation to encapsulate, how 
did we get here? And we have got engineers; we have got 
representatives from both sides. So I am open to anybody who 
might want to----
    Mr. Russo. I think I can add a little to that.
    Since 1971, the band below GPS has been allocated for 
Mobile Satellite Services. We have no problem coexisting with 
that neighbor.
    And in the orders you heard about earlier--and you may, 
sir, have missed it, the oral testimony earlier--they talked 
about adding an ancillary terrestrial component. That was done 
for a very specific reason, to give the Mobile Satellite 
Services operators additional flexibility. And specifically it 
talked about a fill-in capability for gaps in coverage inside 
buildings and in dense urban terrain. That is actually written 
into the FCC orders on this, and that is what the company at 
the time applied for, to give them some extra capability to 
cover places where it might have a problem with coverage.
    They also talked about, in answering complaints about this 
new authority, they talked about the fact that they would be 
limited in what they could do by a self-interference. In other 
words, they were required to have handsets that talked to space 
and terrestrial systems, and therefore, the company itself 
argued that that would then limit what power they could put 
out, and how many stations because, they would be interfering 
with their own service.
    So what we are talking about now is, through a series of 
orders and amendments and mods [modifications] and 
reconsiderations and waivers, over time, that foundation, the 
assumptions that were made have changed, and we find ourselves 
now in a situation that is different than----
    Dr. Fleming. Could we have not contemplated this? Was it 
just something that morphed gradually without anybody really 
being able to contemplate that down the road, all these changes 
and amendments would eventually get us in trouble?
    Mr. Russo. Sir, I think there are pieces of this that there 
could have been more discussion of along the way. But the big 
piece was this last piece. This last piece changes it from a 
space-based system with an ancillary fill-in capability to a 
primary terrestrial system. And that is this last waiver, and 
that is what that does.
    Dr. Fleming. I see. Well, was it not possible to stay with 
the original plan in a space-based system? Or did the company 
just find out that that wasn't going to work as planned?
    Mr. Knapp. I would largely agree with Mr. Russo, but I 
would also say that things evolved on both sides with the 
evolution of GPS and the expanded capabilities over time. This 
is something that--I think your description was fair. It slowly 
came about. The important thing is when we all understood that 
there was a problem there, we put the brakes on the deployment 
until we get it fixed.
    Even, I think, with what we have learned here, the number 
of base stations, if each one were to have caused interference 
at 22 miles, I think everybody would agree that wouldn't have 
been acceptable anyway.
    Dr. Fleming. Right. Sure. Okay. Thank you very much.
    I yield back.
    Mr. Turner. Mr. Lamborn.
    Mr. Lamborn. Thank you. And I will only ask one question 
for the sake of time and with votes pending.
    And this will to be you, General Shelton. Thanks for being 
here. You may have addressed this earlier. Please accept my 
apology if you have because I was chairing another 
subcommittee, so I was not able to get here until a little bit 
later. And this is a little more general of a question. What 
are your concerns from a command and control perspective should 
GPS signals be somehow impaired?
    General Shelton. Congressman, if you are talking about the 
broadest sense of command and control, clearly we count on GPS 
precision as one of our key tenets of command and control, 
knowing where our forces are, knowing where the adversary's 
forces are at very precise locations, that is just fundamental 
to everything we do in command and control and modern warfare. 
So, without GPS, I think we back up quite a bit.
    Mr. Lamborn. And even in the U.S., not a global, but just a 
U.S. focus on this?
    General Shelton. Yes, sir. We train the way we prepare to 
fight. And if you take us back in training, you take us back in 
the way we fight. So we have to be as realistic as we can in 
training. And if you change the training environment to that 
degree, I think it is a fundamental step backwards.
    Mr. Lamborn. Okay. Thank you, Mr. Chairman. I yield back.
    Mr. Turner. I want to thank all of our witnesses today. We 
appreciate your participation. And we look forward to the 
Chairman of the FCC providing us with additional answers to our 
questions. Thank you.
    [Whereupon, at 1:00 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                           September 15, 2011

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 15, 2011

=======================================================================

      
                    Statement of Hon. Michael Turner

            Chairman, House Subcommittee on Strategic Forces

                               Hearing on

                  Sustaining GPS for National Security

                           September 15, 2011

    Good morning. I want to welcome everyone to the Strategic 
Forces Subcommittee's hearing on Sustaining GPS for National 
Security.
    I was planning to make the usual statement of appreciation 
to the witnesses for their appearance here today, and to those 
witnesses who took this issue seriously enough to be here--
General Shelton, Ms. Takai, Mr. Nebbia, Mr. Russo and Mr. 
Knapp--I do thank you for your time and testimony.
    That said, I have the unfortunate responsibility to inform 
the subcommittee that Federal Communications Commission (FCC) 
Chairman Genachowski refused to appear today. I must also make 
clear that I consider the Chairman's failure to show up today 
to be an affront to the House Armed Services Committee. 
Further, it appears to be symptomatic of a disregard by the 
Chairman to the consequences of the FCC's January 26 waiver to 
LightSquared. I trust Chairman Genachowski is doing something 
very important this morning if he couldn't be here to discuss 
the significant harm to national security that may result from 
the FCC's action on January 26th of this year.
    I appreciate that the Chairman is apparently willing to 
provide personal responses to written Questions for the Record 
submitted by this subcommittee, according to staff. But the 
Chairman's priority should be the same as the subcommittee's: 
``Sustaining GPS for National Security.''
    With that unpleasantness out of the way, I wish to 
introduce and express appreciation to the witnesses who are 
here today:

        <bullet> LGeneral William Shelton, Commander of Air 
        Force Space Command--I note this is General Shelton's 
        second appearance before this subcommittee in as many 
        weeks . . . either the General really likes us or he's 
        working to accumulate his frequent flier miles;

        <bullet> LMs. Teresa Takai, Chief Information Officer, 
        Department of Defense;

        <bullet> LMr. Karl Nebbia, Associate Administrator, 
        Office of Spectrum Management, National 
        Telecommunications and Information Administration;

        <bullet> LMr. Anthony Russo, National Coordination 
        Office, Space-Based Positioning, Navigation and 
        Training, National Oceanic and Atmospheric 
        Administration; and

        <bullet> LMr. Julius Knapp, chief of the Federal 
        Communications Commission's Office of Engineering 
        Technology.

    Mr. Knapp, I want to thank you for being here and I want to 
be clear that neither I nor my colleagues have anything other 
than gratitude for your service at the FCC; our concerns are 
with Chairman Genachowski. Thank you all for appearing before 
this subcommittee this morning.
    Why are we here this morning? General Shelton, you might 
remember this question. It was asked by a member of the 
subcommittee during the classified briefing you provided all of 
us last week on LightSquared-GPS test results.
    A brief recap of how we got here. On January 26th of this 
year, the FCC granted a conditional waiver of its own rules 
allowing LightSquared to establish a terrestrial broadband 
network and be freed of certain gating requirements which were 
designed to keep any potential terrestrial service from 
overwhelming the satellite spectrum LightSquared held.
    As we now know, this network would operate with over 40,000 
base stations operating at a frequency adjacent to that long 
used by the Global Position System (GPS), at almost 5 billion 
times the power of the GPS system.
    The Chairman of the FCC knew there were concerns about the 
proposed waiver for LightSquared, as he received a letter from 
Deputy Secretary of Defense Bill Lynn on January 12, 2 weeks 
before the waiver was issued. The Deputy Secretary wrote to Mr. 
Genachowski that ``there is strong potential for interference 
to these critical National Security Space Systems'' referencing 
GPS, Inmarsat terminals, and Aeronautical Mobile Telemetry 
operations. This letter also asked for Chairman Genachowski's 
``personal attention on this matter.'' Without objection, this 
letter will be made a part of the record.
    We also know National Telecommunications and Information 
Administration (NTIA) Assistant Secretary Lawrence Strickling 
wrote to Chairman Genachowski recommending that the FCC not go 
forward with the LightSquared waiver request. Many have 
observed that the FCC followed an irregular process on the 
LightSquared waiver.
    First, the National Legal and Policy Center stated in a 
February 2, 2011, letter to the Chairman and Ranking Member of 
the House Committee on Oversight and Government Reform that, 
``over the course of the past year, a series of odd decisions, 
questionable meetings and procedural anomalies at the Federal 
Communications Commission and White House highlight Mr. 
Falcone's growing influence in the hallways of government.'' 
Mr. Falcone is the CEO of the hedge fund, Harbinger Capital 
Partners, which owns LightSquared. Without objection, this 
letter will be made a part of the record.
    Additionally, in a March letter to Chairman Genachowski, 
the Deputy Secretary of Defense, joined by the Deputy Secretary 
of Transportation noted that ``the DOD and DOT were not 
sufficiently included in the development of the LightSquared 
initial work plan and its key milestones.'' This letter again 
sought the FCC Chairman's personal attention. Without 
objection, this letter will be made a part of the record.
    And just yesterday, the Center for Public Integrity 
released a report detailing, ``Emails show wireless firm's 
communications with White House as campaign donations were 
made.'' In my capacity as a member of the House Committee on 
Government Reform and Oversight, I will be asking Chairman Issa 
and Ranking Member Towns to promptly investigate this matter.
    We cannot afford to have Federal telecommunications policy, 
especially where it affects national security, to be made in 
the same way that the White House parceled out a half billion 
dollars in loan guarantees to the failed Solyndra Corporation, 
a large political campaign contributor of the President.
    While there is clearly a concern about how the FCC has 
conducted this process, those concerns are within the purview 
of the House Committee on Energy and Commerce and the House 
Committee on Oversight and Government Reform.
    Also outside the scope of today's hearing, but of 
significant concern nontheless, is the impact to GPS receiver 
manufacturers like Trimble Navigation in my home town of 
Dayton, Ohio, which manufacturers GPS receivers for the 
agriculture sector and heavy machinery producers like 
Caterpillar.
    But this subcommittee's main purview is national security, 
and the national security consequences of the LightSquared 
network are significant. As I mentioned, the concern in this 
case is that LightSquared's proposed network of 40,000 base 
stations around the U.S., which broadcast at an adjacent signal 
frequency to the signal used by the GPS system, but at 5 
billion times the signal strength, will render useless the 
DOD's GPS receivers.
    General Shelton, Commander of Air Force Space Command, 
informed the HASC-Strategic Forces Subcommittee members in last 
week's classified briefing that ``tests show LightSquared 
signal causes significant interference to military GPS.''
    Simply put, if the FCC gives LightSquared the final go-
ahead to build out its network, I fear the DOD's training 
activities in the United States would come to an end. This 
cannot be allowed to happen. As the members of the House Armed 
Services Committee know, before U.S. troops are deployed, they 
conduct extensive real-world training, which includes use of 
GPS for orienteering of U.S. forces, locating friendly forces, 
locating enemy forces, conducting search-and-rescue activities, 
targeting of precision-guided ordnance, and calling in close 
air support. None of these activities are possible without 
DOD's high-precision GPS receivers, which would be most 
affected by the LightSquared network.
    As a Member of Congress, I can think of no higher 
responsibility than to make sure U.S. military forces are fully 
trained and equipped before they are deployed overseas to 
Afghanistan, Iraq, or any place in harm's way. Likewise, and 
this is something in all of our minds this close to the tenth 
anniversary of the 9/11 attacks on the United States, 
significant harmful interference to the GPS system would be a 
tremendous liability to our defense of the homeland. General 
Shelton, I recall you making this point last week.
    The Armed Services Committee's position as articulated by 
the Turner-Sanchez amendment to the National Defense 
Authorization Act for FY2012 is that the Federal Communications 
Commission (FCC) should not grant LightSquared final approval 
on the conditional waiver granted to the company on January 26, 
2011, until the Commission has dealt with potential harmful 
interference to the DOD's GPS receivers. LightSquared itself 
has no apparent objection to this provision.
    LightSquared has been making a vigorous case for its $4 
billion investment in its proposed network build-out of a new 
nationwide broadband service. That it is a bipartisan policy 
objective to encourage more nationwide broadband service and 
more competition is not in dispute . . . at least not before 
the Armed Services Committee.
    The question for this subcommittee today is how to evaluate 
the harm identified by the Department of Defense to its $34 
billion investment in GPS, GPS ground stations, and DOD high-
precision military GPS receivers. Again, it is more important 
than money . . . this is about our warfighters who rely on this 
technology for safety and their technological edge against 
adversaries.
    And let me state that harm to GPS once again very clearly: 
``tests show LightSquared signal causes significant 
interference to military GPS.''
    As my colleagues know by now, on Tuesday of this week, the 
FCC apparently came to the same conclusion, and issued a Public 
Notice that the ``potential for harmful interference'' meant 
that ``additional targeted testing is needed.'' I consider that 
the understatement of this decade. But, we need to know what 
this Public Notice actually means for DOD GPS users; this may 
very well be an effort to push matters off by a few months 
under the assumption Congress will be distracted by then. I 
look forward to the testimony of the witnesses to get to the 
bottom of this matter.

                   Statement of Hon. Loretta Sanchez

         Ranking Member, House Subcommittee on Strategic Forces

                               Hearing on

                  Sustaining GPS for National Security

                           September 15, 2011

    I would like to welcome General Shelton, Mr. Knapp, Ms. 
Takai, Mr. Nebbia, and Mr. Russo to this hearing on sustaining 
GPS capabilities for national security. Thank you for being 
with us today.
    I would also like to note FCC Chairman Genachowski's 
meeting with Chairman Turner and me on this important issue, 
along with his letter to our subcommittee and the FCC 
announcement this week that the Commission ``has determined 
that additional targeted testing is needed to ensure that any 
potential commercial terrestrial services offered by 
LightSquared will not cause harmful interference to GPS 
operations.''
    I believe this provides initial reassurance that a 
deliberate and careful process for assessing the question of 
whether concerns about significant interference with GPS 
capabilities can be satisfactorily resolved. GPS assets are 
critical to national security and to our way of life.
    While I support efforts to increase and improve broadband 
service, we must ensure that plans for expanding this service 
do not adversely impact crucial navigation, timing and 
precision systems on which many of our nation's defense, as 
well as commercial, capabilities depend.
    Last week, at our request in preparation for this hearing, 
General Shelton provided a closed briefing to our subcommittee 
detailing the classified test results and concerns about the 
consequences of GPS interference.
    This hearing will provide the opportunity to better 
understand several key issues, including:

        <bullet> LThe risks and impacts from LightSquared's 
        proposed terrestrial 4G network plan, and how 
        interference will affect weapons systems
        <bullet> LThe level to which our military depends on 
        GPS assets
        <bullet> LWhether this interference can be mitigated, 
        whether ``fixes'' would require recertification of 
        weapon systems, what the impact to the mission might be 
        and what the costs would be. It bears noting that DOD 
        investment in GPS stands at about approximately $35 
        billion taxpayers dollars
        <bullet> LWhat further testing remains necessary
        <bullet> LWhat the FCC's process is for deciding 
        whether to allow implementation of LightSquared's 
        proposal and what consultations are on-going with other 
        agencies
        <bullet> LHow the interagency process will ensure that 
        national security issues are considered and resolved 
        satisfactorily

    These are important questions to assess in order to 
understand what is at stake and consider a way forward that 
will safeguard national security. Again, welcome. I look 
forward to your testimony.



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           September 15, 2011

=======================================================================



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           September 15, 2011

=======================================================================

      
            RESPONSES TO QUESTION SUBMITTED BY MR. GARAMENDI

    General Shelton. Testing on the initial LightSquared deployment 
plan cost the Air Force approximately $500K. The first round of follow-
on testing is expected to cost the Air Force approximately $400K. These 
figures include test asset costs, but do not account for travel or 
personnel time. The costs for further rounds of testing have not been 
estimated. None of this testing was budgeted for by AFSPC; this reduces 
the resources available to support other testing and activities 
required to provide space and cyber capabilities to our warfighters.
    Determination of who will be obligated to pay for adding the 
filters has not yet been made. This decision would likely be made by 
the FCC. [See page 23.]

    Mr. Nebbia. NTIA does not perform interference testing, so the 
additional costs of testing on NTIA is de minimis and consists 
principally of staff time to analyze test results, coordinate with the 
agencies of the Interdepartment Radio Advisory Committee (IRAC), and 
communicate views to the FCC. While LightSquared has indicated that it 
is willing to share the cost of any proposed interference mitigation 
approach for Federal users of precision and timing receivers, the 
precise extent of the cost and the responsibility for paying such costs 
has not been determined. [See page 23.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 15, 2011

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. 1. I have learned that during the testimony 
coordination process, you were asked to include the following in your 
prepared remarks:

    ``The Administration believes that we must protect existing GPS 
users from disruption of the services they depend on today and ensure 
that innovative new GPS applications can be developed in the future. At 
the same time, recognizing the President's instruction to identify 500 
MHz of new spectrum for innovative new mobile broadband services, we 
will continue our efforts at more efficient use of spectrum. Therefore, 
in the short run, we will participate in the further testing required 
to establish whether there are any mitigation strategies that can 
enable LSQ operation in the lower 10MHz of the band. We also encourage 
commercial entities with interests to work with LightSquared toward a 
possible resolution, though any proposed mitigation must be subjected 
to full testing. We hope that testing can be complete within 90 days. 
The challenge of meeting the President's goal also depends on long-term 
actions by Federal agencies in the area of research and development, 
procurement practices that encourage spectrally-efficient applications, 
and new policy development.''

    a. Who, specifically, asked that this be included?
    b. If you declined to include the language, in whole or in part, 
please describe why.
    c. Did anyone in the Administration attempt to persuade you to 
include the language? Who?
    General Shelton. 1a. As the hearing was rescheduled from 3 August 
to 15 September, my written testimony entered the formal review process 
twice. Both times the testimony followed a normal review process. For 
the 3 August scheduled date, we received a paragraph to add to the 
testimony from the Office of Management and Budget (OMB), relayed 
through our Air Force Legislative Liaison office (SAF/LL). The specific 
author of the paragraph is unknown to us.
    1b. I chose not to concur with this edit because I didn't feel an 
Administration comment was appropriate for a military officer's 
testimony. I was also concerned about the suggested timeline for 
testing.
    1c. This OMB paragraph was the only issue from the Administration 
or other Government agencies that we were not able to resolve for the 3 
August hearing (which was later postponed). We were in the process of 
seeking resolution when the hearing was rescheduled and the review 
process ended. During the testimony review process for the 15 September 
hearing date, there was no suggested paragraph from OMB and the 
testimony moved forward without significant issue.
    Mr. Turner. 2. Are your responses to these QFRs your own views or 
those of your agency? Have your responses been approved/edited by 
anyone other than yourself or someone reporting to you?
    General Shelton. 2. These responses are my own. The QFR responses 
are sent forward for Air Force policy review and for the Office of the 
Secretary of Defense policy review as part of the standard process for 
Questions for the Record.
    Mr. Turner. 3. Please describe when you and your agency became 
aware of the LightSquared network proposal and its potential for 
significant interference.
    General Shelton. 3. In the January/February 2011 timeframe, AFSPC 
became significantly concerned about LightSquared plans and began to 
engage our higher authorities on the issue. This coincides with the 
January 2011 order from the Federal Communications Commission granting 
LightSquared a conditional waiver.
    Mr. Turner. 4. LightSquared has recently announced that it has 
solved the interference issue for 99.5 percent of GPS users.
    a. Do you agree with this statement?
    b. What is the solution?
    c. Is it a solution for uses of GPS for which you are responsible?
    d. Has it been tested by the Federal Government? If so, please 
provide details.
    General Shelton. 4a. We have insufficient data at this point to 
assess the potential effectiveness of LSQ's proposed solution and have 
not seen substantiation of the 99.5% figure. Even if the 99.5% figure 
is statistically accurate, the .5% of affected GPS users represents a 
group of military and high precision receivers that contribute 
significantly to national defense, economic, business, scientific, 
safety of life, and precision agriculture.
    4b. The LSQ proposed solution includes transmitting on only the 10 
MHz low channel (which is further away from the GPS spectrum), 
operating at reduced power, and use of a filter for high precision and 
timing devices.
    4c. Further testing is required to determine the efficacy of these 
solutions.
    4d. The proposed filter is not yet available for testing so we 
cannot draw any conclusions about its effectiveness. Additionally, we 
have not done sufficient testing against LSQ's revised plan to 
determine conclusively whether it will mitigate the risk to military 
receivers. Initial testing identified significant interference even at 
the 10 MHz low channel. We are in the process of planning and executing 
follow-on testing on the revised plan as directed by the National 
Telecommunications and Information Administration (NTIA). This round of 
follow-on testing is focused on general navigation receivers and cell 
phones. Additional testing on high precision and timing receivers will 
be accomplished once the proposed LSQ filters are available.
    Mr. Turner. 5. General Shelton, you stated that you believed that 
LightSquared's filter ``solution'' could cost billions of dollars over 
more than a decade.
    a. Are you in a position to elaborate specifically as to costs, 
timing, and potential degradation effects to military GPS receivers 
from these filters?
    b. And please describe what testing has occurred thus far with 
LightSquared's filters and military GPS receivers.
    c. Who would be obligated to pay for the costs of adding filters?
    General Shelton. 5a. The estimate of billions I stated is based on 
the required modification of a typical platform that uses GPS (an F-15 
and associated precision weaponry for example). The typical costs and 
timing factors include: development, manufacturing, installation and 
testing. As we rotate platforms and devices between CONUS and OCONUS, 
all affected platforms would require implementation of the filters 
which could be expected to have significant mission impact. At this 
point it is too early to describe specific costs, scope and impact of 
the fixes that will be required by DOD systems because we have not been 
able to comprehensively test weapons systems with the proposed 
mitigations against the revised LSQ deployment plan.
    5b. As the filters are not yet available, no testing has been done.
    5c. Determination of who will be obligated to pay for adding the 
filters has not yet been made.
    Mr. Turner. 6. My understanding is that Mr. Russo solicited all 
Federal Government agencies with GPS equities on their concerns with 
the LightSquared proposal. Are you aware of any Government position 
papers on LightSquared interference which have been provided to the 
National Coordination Office or to the NTIA that have not been 
forwarded to the FCC and then made public? If so, why were they not 
made public immediately?
    General Shelton. 6. We are not aware of any undisclosed position 
papers; however, that question would best be answered by the National 
Coordination Office or the NTIA.
    Mr. Turner. 7. Mr. Nebbia--based on my reading of the Public 
Notice, the FCC seems to be putting the weight of the Department of 
Defense's equities entirely on your agency. In turn, in Assistant 
Secretary Strickling's letter to Deputy Secretaries Lynn and Porcari, 
the NTIA is instructing DOD and DOT to conduct additional testing and 
develop solutions to the LightSquared problem. General Shelton, we are 
counting on you to keep this committee informed of the results of 
testing and we seek your expert and impartial judgment about the 
results of those tests. Will you please contact the Subcommittee staff 
or Ms. Sanchez or myself to provide us your recommendation as to 
whether it is necessary to schedule another classified briefing with 
you on GPS interference test results.
    General Shelton. 7. We will keep the committee informed of 
developments.
    Mr. Turner. 8. We have heard that LightSquared believes the FCC 
process, including all testing, can be wrapped up by November 30th. 
However, the Strickling letter to Deputy Secretaries Lynn and Porcari 
clearly describes a second phase of testing ``to evaluate proposed 
mitigation plans for high precision and timing receivers which would 
commence once LightSquared develops a filtering solution to avoid 
interference with those classes of devices.''
    Are you operating under any sort of commitment or obligation to 
wrap up testing under a November 30th or other arbitrary date?
    a. Do you have an expectation for when both phases of testing will 
conclude?
    b. Might there need to be further testing beyond the two phases 
suggested in the Strickling letter of September 9th?
    General Shelton. 8a. The PNT EXCOM 5 October letter to Mr. 
Strickling (NTIA) acknowledged that the 30 November test deadline, for 
cellular and personal/general navigation receivers, is ambitious and 
the actual testing may be completed by the deadline date, but analysis 
and final report may take longer. The NPEF test team is working 
expeditiously to complete the testing of general navigation devices and 
to have an initial executive draft report available by 30 Nov. At 
present we expect the first phase of testing to be completed on 4 Nov. 
The second phase of testing is dependent upon LSQ filter availability. 
We do not have an estimate for the filter availability at this point so 
I cannot provide an estimate for completion of the second phase 
testing.
    8b. NTIA's intent as expressed in their 9 September letter is for 
testing to be ``conclusive and final'' with respect to assessing the 
impact of LSQ's revised proposal. Our understanding is LSQ's final 
deployment plan may still require the upper 10 MHz channel. If true, 
further testing would be required.
    Mr. Turner. 9. LightSquared has proposed, as part of its ``lower 10 
MHz'' option a ``standstill'' on the upper 10 MHz of the spectrum 
adjacent to the GPS signal. At the same time, LightSquared is said to 
believe that it needs access to its full spectrum, both the lower and 
the upper, to be profitable.
    a. Please explain what the ``standstill'' means and what terms 
LightSquared is proposing for the ``standstill.''
    b. Has LightSquared indicated the ``upper 10'' of the spectrum is 
completely, permanently off-the-table? Is that what the ``standstill'' 
means?
    c. If the ``standstill'' was only a matter of a few years, what 
would that mean to your agencies?
    d. Should Congress, or the FCC, codify somehow the terms of the 
``standstill'' if it is ultimately determined that the ``lower 10 MHz'' 
option is acceptable?
    e. Please provide a specific description of the defense equities 
regarding LightSquared's ``lower 10'' proposal, for the near term and 
into the future.
    General Shelton. 9a. While we interpret ``standstill'' to mean 
temporary halt to deployment and operation in the upper 10 MHz band of 
LSQ's two authorized bands, we expect FCC to clarify.
    9b. LSQ has not given any formal indication that they intend to 
remove the upper 10 band from their final deployment plans.
    9c. It has been agreed by both LSQ and the GPS community that the 
upper 10 MHz band causes unacceptable interference to GPS. Until an 
acceptable mitigation solution is identified and implemented, operation 
in that band would result in the level of interference described in my 
testimony. Assuming an acceptable solution can be found, I estimate it 
would take many years to implement across DOD.
    9d. I believe it is essential the FCC clearly codify the terms of 
the ``standstill.''
    9e. We are still in the process of assessing the impacts of the 
``lower 10'' proposal. Initial NPEF testing of the proposal indicated 
significant interference concerns for DOD receivers. The initial 
testing was limited with respect to the types of devices tested but the 
interference noted was applicable to aviation and maritime 
applications.
    Mr. Turner. 10. Please give us an idea of the size and scope of the 
GPS system to include applications and users. Please elaborate to the 
extent possible in an open hearing on the military capabilities that 
rely on GPS.
    General Shelton. 10. The Global Positioning System is DOD's largest 
satellite system currently consisting of 30 operational satellites. 
Total expenditure for the GPS program since its inception is $34B. It 
provides 24/7 positioning, navigation and timing services to the entire 
world, free of charge. GPS is integrated into nearly every facet of 
U.S. military operations and is essential to Federal aviation, first 
responders, precision agriculture, banking, cell phone service, and 
automobile/personal navigation systems. There are over a million DOD 
GPS receivers and it has been estimated that there are more than 4 
billion users worldwide.
    Mr. Turner. 11. Describe how GPS is used by the military and the 
degree of dependence the military has on GPS. Is the military's use of 
GPS primarily overseas and in theater, or is the military also 
dependent on GPS within the continental United States (where 
LightSquared plans to deploy its communications services)?
    General Shelton. 11. GPS is integrated into nearly every facet of 
U.S. military operations. Combat troops, military aircraft (manned and 
unmanned), naval vessels, high speed communications networks, and 
precision guided munitions all depend heavily on the accuracy, 
availability and reliability of GPS. Our primary military uses are 
overseas but our aircraft support CONUS and North American defense 
missions. The military also supports CONUS search & rescue and drug 
interdiction operations (Coast Guard operations are a prime example). 
Additionally, our training missions, development and testing of new and 
modified systems take place primarily in CONUS. Military equipment and 
platforms rotate between CONUS and OCONUS and must therefore be 
completely interoperable with other U.S. equipment as well as with that 
of our allies. As LSQ's deployment covers a significant portion of the 
U.S., the vast majority of our CONUS operations, to include combat 
training and preparation, would be impacted.
    Mr. Turner. 12. What is the DOD's total investment in GPS, 
including satellites, ground stations, receivers, etc?
    General Shelton. 12. We estimate the total expenditure for the GPS 
program since its inception at $34B.
    Mr. Turner. 13. LightSquared would operate in a different part of 
the spectrum (1525-1559 megahertz) than GPS (1559-1610 megahertz). Why 
is there an interference problem when the two systems would operate in 
different, but neighboring, parts of the spectrum?
    General Shelton. 13. The original deployment calls for nearly 
40,000 transmitters operating in the frequency band immediately 
adjacent to GPS. With potential transmitter spacing of .25 to .5 miles 
apart in cities, the LSQ transmit signal will be over 5 billion times 
more powerful than the GPS signal received from space. Essentially, the 
LSQ signal would overpower the GPS signal causing receivers to become 
unable to isolate the GPS signal from the ``noise'' caused by the more 
powerful LSQ signal. It is also important to note that in order to 
achieve the greatest possible accuracy, high precision GPS devices are 
designed to ``listen'' to sidelobes of the GPS signal that extend 
outside of the GPS band. This design feature has not been an issue in 
the past as GPS receivers can easily distinguish the GPS signal from 
those in adjacent bands so long as the signals are of comparable 
strength. Previously, only such signals were allowed in these frequency 
bands.
    Mr. Turner. 14. What is the magnitude of the harmful interference 
and the national security implications of such interference? Discuss 
the results of the Department's testing and any specific examples that 
substantiate these observations.
    General Shelton. 14. GPS is used by all Services, from ground 
forces, to precision-guided munitions, to synchronization and security 
of communications networks, to search and rescue operations, to 
humanitarian relief operations. GPS is also used by the Department of 
Homeland Security for National border and maritime security.
    As discovered during testing of the original LightSquared 
deployment plan, aviation receivers operating as far as 7.5 miles from 
LightSquared transmitters completely lost the GPS signal and were 
degraded out to distances of more than 16.5 miles. For two 
representative receivers tested by the FAA, results also showed GPS 
would be completely unusable for an aircraft 500 feet above the ground 
in an area spanning Stafford, Virginia through Washington and 
Baltimore, and out to Frederick, Maryland.
    High precision GPS receivers such as those used for surveying and 
geological study requiring precise measurements were adversely affected 
out to 213 miles and totally lost the GPS signal out to 4.8 miles.
    Based on testing performed at the Jet Propulsion Laboratory, a 
class of receivers used in space to conduct certain types of 
atmospheric measurements would be unusable up to 12% of the time while 
in their typical orbits.
    The State of New Mexico E-911 Program Director, who sent several 
GPS-equipped emergency and police vehicles to the test, stated in a 
letter to AFSPC that their equipment showed ``the LightSquared network 
will cause interference to GPS signals and jeopardize 911 and public 
safety.''
    Actual test results for the original LightSquared deployment plan 
indicated significant degradation to every receiver-type tested. Most 
units tested completely lost their GPS service at some point. The 
specific military receiver test results are classified, but the results 
were consistent with the other receiver test results.
    Mr. Turner. 15. The reviews undertaken suggest that there are 
certain GPS applications that, even with modification or complete 
redesign, would still not be able to perform their current mission in 
the presence of such network broadcasting directly adjacent to the GPS 
L1 band. What applications?
    General Shelton. 15. At present there is no proven/tested 
mitigation that will resolve the interference issues for high precision 
devices even under the revised LSQ deployment plan (``Lower 10''). 
Proposed filters have not yet been made available for testing. It is 
unclear if the proposed filters would impact military receiver accuracy 
for our high precision systems. This would be determined through 
extensive testing. No mitigations have been identified to resolve 
interference issues for any type of receiver with respect to LSQ 
operations at the upper 10 MHz band.
    Mr. Turner. 16. Assuming FCC provides authorization for 
LightSquared to move forward with its deployment plans, as outlined in 
its November 2010 filing, how would this build-out affect military 
systems and users in the near-term?
    General Shelton. 16. Testing results demonstrated empirically that 
the LightSquared signals operating in the originally proposed manner 
would significantly interfere with all types of receivers tested. 
Specific military receiver test results are classified, but the results 
were consistent with other receiver results. Impacts would be expected 
to all Services' and Allies' ground forces, over 290,000 hand-held 
navigation receivers, combat aircraft, search and rescue aircraft, 
remotely piloted aircraft and precision guided munitions.
    Mr. Turner. 17. Does LightSquared's June 30, 2011, submission to 
the FCC provide sufficient information on its ``lower 10'' proposal for 
your organizations to determine whether the proposal mitigates GPS 
interference?
    General Shelton. 17. We have sufficient information on the lower 10 
to begin initial testing. For the longer term, we need to better 
understand specific LSQ deployment plans to determine potential 
impacts.
    Mr. Turner. 18. Is your organization concerned that the FCC can 
provide final approval for LightSquared operations prior to resolving 
the GPS interference issues?
    General Shelton. 18. Thus far, the FCC has not granted final 
approval and has indicated that it will not do so until the GPS 
interference issues are satisfactorily resolved. The NTIA reported in a 
September 9, 2011, letter to Deputy Secretary of Defense Lynn and 
Deputy Secretary of Transportation Porcari that there is agreement by 
both LSQ and the GPS community that operations in the lower 10 MHz 
signal will cause unacceptable interference to high precision 
receivers. This letter also documents LSQ statements that it will not 
commence commercial operations unless and until Federal agencies test 
the LSQ proposed filter and conclude that it is an effective mitigation 
for the high precision receivers. It is acknowledged by all parties, 
including LSQ, that operations in the upper 10 MHz band are currently 
unacceptable for all GPS applications.
    I agree with the NPEF recommendation to rescind the FCC's waiver. 
Although high precision receivers are a small percentage of all 
receivers in use, their functions are vital to military operations in 
support of national defense. At an absolute minimum it would be helpful 
for the FCC to formally order that operations in the upper 10 MHz band 
be prohibited until an acceptable solution can be found and 
implemented. The implementation timeline should be based on input 
provided by the impacted users.

    Mr. Turner. 1. I have learned that during the testimony 
coordination process, you were asked to include the following in your 
prepared remarks:

    ``The Administration believes that we must protect existing GPS 
users from disruption of the services they depend on today and ensure 
that innovative new GPS applications can be developed in the future. At 
the same time, recognizing the President's instruction to identify 500 
MHz of new spectrum for innovative new mobile broadband services, we 
will continue our efforts at more efficient use of spectrum. Therefore, 
in the short run, we will participate in the further testing required 
to establish whether there are any mitigation strategies that can 
enable LSQ operation in the lower 10MHz of the band. We also encourage 
commercial entities with interests to work with LightSquared toward a 
possible resolution, though any proposed mitigation must be subjected 
to full testing. We hope that testing can be complete within 90 days. 
The challenge of meeting the President's goal also depends on long-term 
actions by Federal agencies in the area of research and development, 
procurement practices that encourage spectrally-efficient applications, 
and new policy development.''

    a. Who, specifically, asked that this be included?
    b. If you declined to include the language, in whole or in part, 
please describe why.
    c. Did anyone in the Administration attempt to persuade you to 
include the language? Who?
    Mr. Nebbia. 1. My testimony went through the standard review 
process overseen by the Office of Management and Budget (OMB), which 
includes review by other Federal agencies and entities of the Executive 
Office of the President. As with all testimony and other similar 
documents, the National Telecommunications and Information 
Administration (NTIA) welcomes input from other Federal entities but 
determines on its own which, if any, suggestions to incorporate, in 
full or in part. We received the text cited above both from the 
standard legislative interagency clearance process that is overseen by 
the Office of Management and Budget and through the Office of Science 
and Technology Policy. NTIA chose not to include the statement 
regarding the completion of testing within 90 days in its final 
testimony. The final NTIA testimony reflects the views of the NTIA as 
the Administration's technical and policy expert on telecommunications 
and information policy.
    Mr. Turner. 2. Are your responses to these QFRs your own views or 
those of your agency? Have your responses been approved/edited by 
anyone other than yourself or someone reporting to you?
    Mr. Nebbia. 2. The responses to the QFRs reflect my views, which 
are consistent with the views of the NTIA.
    Mr. Turner. 3. Please describe when you and your agency became 
aware of the LightSquared network proposal and its potential for 
significant interference.
    Mr. Nebbia. 3. NTIA became aware of the potential for interference 
in November 2010, when LightSquared submitted to the Federal 
Communications Commission (FCC) an application for modification of its 
existing Ancillary Terrestrial Component (ATC) authorization to enable 
it to deploy, on a wholesale basis, a nationwide 4th generation (4G) 
terrestrial wireless broadband network with handsets that do not 
include the satellite service. Following the application for 
modification, several Federal agencies expressed concerns relating to 
potential interference. In light of these concerns, NTIA wrote the FCC 
in January 2011 stating the Administration's position that LightSquared 
should not be allowed to move forward to commence commercial operations 
unless interference issues were resolved.
    Mr. Turner. 4. LightSquared has recently announced that it has 
solved the interference issue for 99.5 percent of GPS users.
    a. Do you agree with this statement?
    b. What is the solution?
    c. Is it a solution for uses of GPS for which you are responsible?
    d. Has it been tested by the Federal Government? If so, please 
provide details.
    Mr. Nebbia. 4. In response to LightSquared's revised proposal to 
operate in only the lower 10 megahertz signal of the Mobile Satellite 
Service (MSS) band, NTIA requested, in a September 9, 2011, letter, 
that the National Executive Committee for Space-Based Positioning, 
Navigation, and Timing (ExCom) work with LightSquared to develop a test 
plan and conduct tests to measure interference to cellular and 
personal/general navigation receivers by November 30, 2011. This 
testing on cellular and personal/general navigation receivers is now 
complete. NTIA has received the test data and is analyzing it as 
expeditiously as possible. In addition, NTIA's letter noted that 
LightSquared acknowledged that its modified operating proposal to use 
only the lower 10 megahertz signal would cause unacceptable 
interference to high-precision and timing receivers. Accordingly, 
LightSquared is proceeding to procure the design and manufacture of a 
filter to mitigate these impacts. LightSquared agreed that it will not 
commence commercial operations unless and until the Federal agencies 
test the filter and conclude that it is effective at eliminating 
unacceptable overload without degrading the precision performance of 
the receivers. With respect to timing receivers, LightSquared has 
identified the PCTEL antenna as a possible solution to mitigate 
interference. LightSquared has acknowledged that the Federal agencies 
need to perform a more rigorous review of the effectiveness of this 
antenna in mitigating interference without degrading the performance of 
timing receivers. Accordingly, even if the analysis of the tests we 
requested on September 9 shows that impacts to general navigation and 
cellular can be mitigated, there will need to be additional testing to 
evaluate proposed mitigation plans for high-precision and timing 
receivers which would commence once LightSquared develops a filtering 
solution to avoid interference with those classes of devices. However, 
if analysis does not point a path to mitigation of interference effects 
to general navigation and cellular, the testing of high precision and 
timing devices may not be warranted.
    Mr. Turner. 5. General Shelton stated that he believed that 
LightSquared's filter ``solution'' could cost billions of dollars over 
more than a decade. Who would be obligated to pay for the costs of 
adding filters?
    Mr. Nebbia. 5. While LightSquared has indicated that it would share 
the cost of any proposed interference mitigation approach for Federal 
users, the precise extent of the cost and the responsibility for paying 
such costs has not been determined. State and local governments as well 
as commercial users may be responsible for the full costs of the 
filters.
    Mr. Turner. 6. In a September 29, 2011, Washington Post article by 
Cecilia Kang, it was reported that LightSquared chief executive Sanjiv 
Ahuja said during an interview on C-SPAN's ``The Communicators'' that 
the company is offering Federal agencies ``a sufficient amount of money 
to replace most receivers or fix most receivers out there.''
    a. Please provide an estimate of how much money LightSquared would 
have to spend to ``replace most receivers or fix the Federal 
Government's GPS receivers.''
    b. How much has the United States Government spent on its GPS 
receivers?
    c. How much have GPS users other than the United States spent on 
their GPS receivers?
    Mr. Nebbia. 6. NTIA does not have the information, including the 
extent and cost of agency GPS uses as well as sufficient detail 
regarding LightSquared's proposed deployment plan, all of which would 
be necessary to estimate the replacement costs you describe.
    Mr. Turner. 7. My understanding is that Mr. Russo solicited all 
Federal Government agencies with GPS equities on their concerns with 
the LightSquared proposal. Are you aware of any Government position 
papers on LightSquared interference which have been provided to the 
National Coordination Office or to the NTIA that have not been 
forwarded to the FCC and then made public? If so, why were they not 
made public immediately?
    Mr. Nebbia. 7. NTIA received input from some Federal agencies 
regarding the potential impact of LightSquared's original plan. Other 
agencies provided input regarding the FCC public notice in July. NTIA 
has also requested information regarding agencies' use of precision and 
timing receivers. Consistent with NTIA's mission to ensure efficient 
and effective use of spectrum while protecting critical Federal 
Government operations, NTIA regularly consults with agencies on 
important spectrum policy matters. NTIA values the candid input of 
agencies, which NTIA, as the manager of Federal spectrum use, utilizes 
as a critical input into its decision-making. NTIA does not typically 
release to the public the pre-decisional agency input it receives. 
NTIA's final views will be provided to the FCC and made part of the 
public record in this proceeding.
    Mr. Turner. 8. Based on my reading of the Public Notice, the FCC 
seems to be putting the weight of the Department of Defense's equities 
entirely on your agency. In turn, in Assistant Secretary Strickling's 
letter to Deputy Secretaries Lynn and Porcari, the NTIA is instructing 
DOD and DOT to conduct additional testing and develop solutions to the 
LightSquared problem.
    a. Can you please lay out what options are available to the NTIA to 
ensure that the FCC does not finalize a rule that allows interference 
with the DOD's precision receivers?
    b. Is there any circumstance in which General Shelton would say he 
believes there to be harmful interference to GPS, regardless of the 
mitigation solution offered by LightSquared, and the FCC would be 
permitted to go ahead and remove the condition on the January 26 
waiver? Put another way, what are the NTIA's options to block the FCC 
from finalizing the LightSquared waiver?
    Mr. Nebbia. 8. Beginning last January and continuing to this day, 
NTIA has expressed serious concerns on behalf of Federal entities 
regarding potentially harmful interference to GPS-reliant systems from 
LightSquared's proposed terrestrial operations and has urged the FCC 
not to permit LightSquared to commence operations until those concerns 
are resolved. NTIA continues to work with the FCC, Federal entities, 
and industry on a data-driven, engineering-based approach to addressing 
interference concerns. The FCC's January 26, 2011, Waiver Order stated 
that the FCC would not allow LightSquared to commence operations until 
``the Commission, after consultation with NTIA, concludes that the 
harmful interference concerns have been resolved and sends a letter to 
LightSquared stating that the process is complete.'' \1\ NTIA 
appreciates that the FCC takes very seriously the concerns raised by 
NTIA and the Federal agencies in this matter, as well as its commitment 
to ensure that these concerns are resolved before permitting 
LightSquared to begin commercial operations. We look forward to 
providing thorough, expert input to the Commission as it moves toward a 
final decision in this matter.
---------------------------------------------------------------------------
    \1\ LightSquared Subsidiary LLC; Request for Modification of its 
Authority for an Ancillary Terrestrial Component, SAT-MOD-2010118-
00239; Call Sign: S2358, Order and Authorization (Order), 26 F.C.C. 
Rcd. 566 (2011).
---------------------------------------------------------------------------
    Mr. Turner. 9. We have heard that LightSquared believes the FCC 
process, including all testing, can be wrapped up by November 30th. 
However, the Strickling letter to Deputy Secretaries Lynn and Porcari 
clearly describes a second phase of testing ``to evaluate proposed 
mitigation plans for high precision and timing receivers which would 
commence once LightSquared develops a filtering solution to avoid 
interference with those classes of devices.'' Please explain the 
significance of November 30th.
    Mr. Nebbia. 9. In response to LightSquared's revised proposal to 
operate in only the lower 10 megahertz signal of the MSS band, NTIA 
requested, in a September 9, 2011, letter, that the ExCom work with 
LightSquared to develop and implement a test plan to measure 
interference to cellular and personal/general navigation receivers by 
November 30, 2011. Based on NTIA's technical expertise, we believe this 
is an appropriate amount of time for the testing. This phase of testing 
on cellular and personal/general navigation receivers is now complete. 
NTIA has received the test data and is analyzing it as expeditiously as 
possible. NTIA will consider all available data before proposing any 
recommendations on behalf of the administration with respect to 
commercial deployment of the LightSquared network. But that is not all 
the testing that needs to be done. As described in the September 9 
letter and in my response to Question 4, there will later need to be an 
additional phase of testing to evaluate proposed mitigation plans for 
high-precision and timing receivers which would commence once 
LightSquared provides a filtering solution to avoid interference with 
those classes of devices. The testing will also evaluate the impact of 
the filtering solution on receiver performance. However, if analysis 
does not point a path to mitigation of interference effects to general 
navigation and cellular, the testing of high precision and timing 
devices may not be warranted.
    Mr. Turner. 10. LightSquared has proposed, as part of its ``lower 
10 MHz'' option a ``standstill'' on the upper 10 MHz of the spectrum 
adjacent to the GPS signal. At the same time, LightSquared is said to 
believe that it needs access to its full spectrum, both the lower and 
the upper, to be profitable.
    a. Please explain what the ``standstill'' means and what terms 
LightSquared is proposing for the ``standstill.''
    b. Has LightSquared indicated the ``upper 10'' of the spectrum is 
completely, permanently off-the-table? Is that what the ``standstill'' 
means?
    c. If the ``standstill'' was only a matter of a few years, what 
would that mean to your agencies?
    d. Should Congress, or the FCC, codify somehow the terms of the 
``standstill'' if it is ultimately determined that the ``lower 10 MHz'' 
option is acceptable?
    Mr. Nebbia. 10. LightSquared has not yet clearly explained its 
definition of temporary ``standstill'' and if or when the standstill 
would cease. However, LightSquared's December 12, 2011, filing with the 
FCC indicated that they would not use the upper 10 MHz without the 
concurrence of the PNT ExCom. We anticipate that this would be among 
the items that the FCC should clearly and fully articulate in its final 
determination in this matter.
    Mr. Turner. 11. LightSquared's business plan calls for providing 
service to 260 million people by 2015. If LightSquared limited its 
network operations to its ``lower 10'' proposal, including lower power 
levels, how much of its business plan does it achieve? Does it need 
both the ``lower 10'' and ``upper 10'' megahertz bands to realize full 
coverage of 260 million people?
    Mr. Nebbia. 11. NTIA defers to LightSquared for specific questions 
relating to its business plan.
    Mr. Turner. 12. Part of this proposal is a ``standstill'' on the 
use of the upper 10 MHz spectrum. What is a ``standstill'' and how 
would it work?
    Mr. Nebbia. 12. LightSquared proposed to modify its original 
deployment plan to use only the lower 10 megahertz signal of the MSS 
spectrum in its initial deployment and operate its base stations at 
lower power. In addition, LightSquared agreed that it would not operate 
(i.e., ``standstill'') its terrestrial component signal in the upper 10 
megahertz immediately adjacent to the GPS band. LightSquared has not 
yet clearly explained its definition of ``standstill'' and if or when 
the standstill would cease. However, LightSquared's December 12, 2011, 
filing with the FCC indicated that they would not use the upper 10 MHz 
without the concurrence of the PNT ExCom.
    Mr. Turner. 13. It has been said by the FCC, including the 
Chairman, that the FCC handles interference issues all the time, so we 
can trust it to handle this one. This is a troubling statement, as it 
seems to be suggesting that this case is a routine matter. Mr. Nebbia, 
is it the public interest for the United States to have a GPS system 
that operates free of harmful interference? Is it the public interest 
for the U.S. to have set the global standard in precision, navigation 
and timing?
    Mr. Nebbia. 13. GPS provides services and benefits of great utility 
and value to the nation and NTIA is committed to protecting GPS users 
from disruption. As the manager of Federal agency spectrum use, NTIA is 
focused on enabling Federal agencies to perform their missions while 
ensuring, to the greatest extent possible, that those agencies use and 
share spectrum efficiently and effectively. Beginning last January and 
continuing to this day, NTIA has expressed serious concerns on behalf 
of Federal entities regarding potentially harmful interference to GPS-
reliant systems from LightSquared's proposed terrestrial operations and 
has urged the FCC not to permit LightSquared to commence operations 
until those concerns are resolved. At the same time, NTIA is 
collaborating with the FCC to identify and make available over the next 
decade an additional 500 megahertz of spectrum for fixed and mobile 
wireless broadband by either reallocating or creating opportunities to 
share spectrum currently used by commercial or Federal users. The goal 
is to nearly double over the next decade the amount of spectrum that is 
currently available for commercial wireless broadband. By doing so, the 
NTIA and FCC will help spur innovation, expand economic growth and job 
creation, and preserve America's global technology leadership. NTIA is 
working diligently to consider all available data in order to address 
these goals in the most rapid and responsible manner possible.
    Mr. Turner. 14. The subcommittee has asked Mr. Knapp if the FCC has 
discussed with LightSquared whether it will include technology by two 
firms linked to the Communist Chinese People's Liberation Army, Huawei 
and ZTE Corp., in this 4G nationwide network, assuming it is approved 
in some configuration. Will you please take this back to LightSquared 
and provide a written response to this Committee for the record of the 
hearing?
    Mr. Nebbia. 14. NTIA recommends that the Committee request such a 
written response directly from LightSquared.
    Mr. Turner. 15. Please give us an idea of the size and scope of the 
GPS system to include applications and users. Please elaborate to the 
extent possible in an open hearing on the military capabilities that 
rely on GPS.
    Mr. Nebbia. 15. GPS, and the innovation derived from its 
application, provides services and benefits of great utility and value 
to the nation, including for military and public safety purposes that 
protect the homeland and save lives. GPS technologies impact finance, 
agriculture, military, public safety, transportation, maritime, energy, 
and nearly every critical economic and social activity. NTIA is 
committed to protecting GPS users from disruption and continues to work 
with the FCC, Federal entities, and industry on a data-driven, 
engineering-based approach to addressing interference concerns.
    Mr. Turner. 16. LightSquared would operate in a different part of 
the spectrum (1525-1559 megahertz) than GPS (1559-1610 megahertz). Why 
is there an interference problem when the two systems would operate in 
different, but neighboring, parts of the spectrum?
    Mr. Nebbia. 16. LightSquared's existing satellite operations 
utilize relatively low-powered, satellite-based transmissions that do 
not create harmful interference to GPS operations in the adjacent band. 
By contrast, LightSquared's proposed terrestrial-only operations would 
utilize a very large number of high-powered, ground-based 
transmissions. It is the combination of significantly more high-power, 
ground-based transmitters, combined with the proximity to GPS 
receivers, that result in the interference. For a more detailed 
explanation of the causes of this interference, please see my September 
15 testimony before your Subcommittee, available at: http://
www.ntia.doc.gov/speechtestimony/2011/testimony-karl-nebbia-hearing-
sustaining-gpsnational-security-0.
    Mr. Turner. 17. The reviews undertaken suggest that there are 
certain GPS applications that, even with modification or complete 
redesign, would still not be able to perform their current mission in 
the presence of such network broadcasting directly adjacent to the GPS 
L1 band. What applications?
    Mr. Nebbia. 17. The tests performed thus far indicate that many 
precision and timing devices would be impacted by LightSquared's use of 
the lower 10 MHz. However, these results are based on current 
technology and do not take into account any proposed filter solution. 
Unless and until LightSquared proposes a filtering solution, we cannot 
say whether the precision and timing systems would be impaired even 
after making modifications or redesigning the devices.
    Mr. Turner. 18. Is LightSquared allowed to build out a terrestrial 
network today? What are the limitations, if any? Under what 
circumstances could/would buildup be stopped? Assuming FCC provides 
authorization for LightSquared to move forward with its deployment 
plans, as outlined in its November 2010 filing, how would this build-
out affect military systems and users in the near-term?
    Mr. Nebbia. 18. Under its existing authorization, LightSquared is 
permitted to offer dual-mode MSS/ATC devices and/or services (i.e., 
handsets that can communicate both with orbiting satellites and 
terrestrial base stations). In November 2010, LightSquared requested a 
modification to its current authorization to deploy terrestrial-only 
handsets and services that do not utilize the satellite signal. 
LightSquared is not permitted to commence operations on this 
terrestrial-only network until interference concerns have been 
adequately addressed. The FCC's January 26, 2011, LightSquared Order 
stated that the FCC would not allow LightSquared to commence operations 
until ``the Commission, after consultation with NTIA, concludes that 
the harmful interference concerns have been resolved and sends a letter 
to LightSquared stating that the process is complete.'' \2\ Beginning 
last January and continuing to this day, NTIA has expressed serious 
concerns on behalf of Federal entities, including military users, 
regarding potentially harmful interference to GPS-reliant systems from 
LightSquared's proposed terrestrial operations and has urged the FCC 
not to permit LightSquared to commence operations until those concerns 
have been resolved.
---------------------------------------------------------------------------
    \2\ LightSquared Subsidiary LLC; Request for Modification of its 
Authority for an Ancillary Terrestrial Component, SAT-MOD-2010118-
00239; Call Sign: S2358, Order and Authorization (Order), 26 F.C.C. 
Rcd. 566 (2011).
---------------------------------------------------------------------------
    Mr. Turner. 19. Are FCC and the NTIA looking at other parts of the 
spectrum for possible LightSquared operations?
    Mr. Nebbia. 19. NTIA is not currently looking at other spectrum 
bands for LightSquared's operations. In June 2010, President Obama 
directed NTIA to collaborate with the FCC to identify and make 
available over the next decade an additional 500 megahertz of spectrum 
for fixed and mobile wireless broadband by either reallocating or 
creating opportunities to share spectrum currently used by commercial 
or Federal users. The goal is to nearly double over the next decade the 
amount of spectrum that is currently available for commercial wireless 
broadband. By doing so, the NTIA and FCC will help spur innovation, 
expand economic growth and job creation, and preserve America's global 
technology leadership. To date, NTIA has identified 115 megahertz of 
Federal spectrum for reallocation and is currently evaluating another 
95 megahertz of spectrum with the goal of making a recommendation on 
that band in the coming weeks.
    Mr. Turner. 20. DOD briefings to the committee suggest that the 
part of the L-Band spectrum in question was intended primarily for 
space-to-ground transmissions. Can you explain the history here and why 
decisions were made to allow significant terrestrial transmissions in 
this band?
    Mr. Nebbia. 20. In 2003, the FCC granted MSS providers flexibility 
in how they could deliver their communications offerings by enabling 
them to integrate an ATC into their MSS networks. As envisioned, the 
ATC would augment MSS services by utilizing ground stations and mobile 
terminals that re-use frequencies assigned for satellite communications 
in order to enhance MSS coverage. By granting providers flexibility to 
integrate MSS and ATC, the FCC sought to maximize spectrum efficiency 
and expand communications capabilities in the United States by filling 
in the ``gaps'' in satellite coverage. However, the FCC stated that in 
order to meet its ``integrated service rule,'' the added terrestrial 
component had to remain ancillary to the principal MSS offering. This 
ancillary requirement was particularly important to users of GPS since 
emissions from terrestrial base stations represent a significantly 
different interference threat to GPS than the far weaker signals 
emitted from satellites to the ground.
    In November 2004, the FCC's International Bureau granted a 
predecessor company to LightSquared Subsidiary LLC (LightSquared) the 
authority to operate ATC facilities providing voice and data 
communication for users equipped with dual-mode MSS/ATC devices (i.e., 
handsets that could communicate both with orbiting satellites and 
terrestrial base stations). Additionally, in subsequent Orders in 2005 
and 2010, the FCC afforded LightSquared additional flexibility for the 
technical design of its ATC network by, for example, waiving the 
requirement for the handsets to seek a satellite connection before 
connecting to a terrestrial base station, by waiving the requirement 
for a fixed number of base stations, and by allowing increased power. 
\3\
---------------------------------------------------------------------------
    \3\ See Federal Communications Commission, Flexibility for Delivery 
of Communications by Mobile Satellite Service Providers in the 2 GHz 
Band, the L-Band, and the 1.6/2.4 GHz Bands, IB Docket Nos. 01-185, 02-
364, 18 F.C.C. Rcd. 1962, 1964-65 (2003); see also Federal 
Communications Commission, Flexibility for Delivery of Communications 
by Mobile Satellite Service Providers in the 2 GHz Band, the L-Band, 
and the 1.6/2.4 GHz Bands, IB Docket No. 01-185, 20 F.C.C. Rcd. 4616 
(2005); see also, Federal Communications Commission, SkyTerra 
Communications, Inc., Transferor and Harbinger Capital Partners Funds, 
Transferee Applications for Consent to Transfer Control of SkyTerra 
Subsidiary, LLC, IB Docket No. 08-184, Memorandum Opinion and Order and 
Declaratory Ruling, 25 F.C.C. Rcd. 3059 (March 25, 2010); Federal 
Communications Commission, SkyTerra Subsidiary LLC Application for 
Modification Authority for an Ancillary Terrestrial Component, File No. 
SATMOD-20090429-00047, Call Sign: AMSC-1, File No. SAT-MOD-20090429-
00046, Call Sign: S2358, File No. SES-MOD-20090429-00536, Call Sign: 
E980179, Order and Authorization, 25 F.C.C. Rcd. 3043 (March 26, 2010).
---------------------------------------------------------------------------
    Mr. Turner. 21. Does LightSquared's June 30, 2011, submission to 
the FCC provide sufficient information on its ``lower 10'' proposal for 
your organizations to determine whether the proposal mitigates GPS 
interference?
    Mr. Nebbia. 21. No. In response to LightSquared's revised proposal 
to operate in only the lower 10 megahertz signal of the MSS band, NTIA 
requested, in a September 9, 2011, letter, that the ExCom work with 
LightSquared to develop and implement a test plan to measure 
interference to cellular and personal/general navigation receivers by 
November 30, 2011. This phase of testing on cellular and personal/
general navigation receivers is now complete. NTIA has received the 
test data and is analyzing it as expeditiously as possible. There may 
later need to be a second phase of testing to evaluate proposed 
mitigation plans for high-precision and timing receivers which would 
commence once LightSquared provides a filtering solution to avoid 
interference with those classes of devices. However, if analysis does 
not point a path to mitigation of interference effects to general 
navigation and cellular, the testing of high precision and timing 
devices may not be warranted.
    Mr. Turner. 22. How are DOD comments and concerns addressed at this 
point in the process?
    Mr. Nebbia. 22. As the manager of Federal agency spectrum use, NTIA 
is focused on enabling Federal agencies to perform their missions while 
ensuring, to the greatest extent possible, that those agencies use and 
share spectrum efficiently and effectively. Beginning last January, and 
continuing to this day, NTIA has expressed serious concerns on behalf 
of Federal entities--including the Department of Defense--regarding 
potentially harmful interference to GPS-reliant systems from 
LightSquared's proposed terrestrial operations and has urged the FCC 
not to permit LightSquared to commence operations until those concerns 
have been resolved. NTIA values the candid input of agencies, and 
considers it a critical input into its decision-making. The Department 
of Defense co-chairs the Executive Steering Group of the ExCom, which 
NTIA has requested work with LightSquared to undertake additional 
testing. The results of the additional testing will serve as a critical 
input as NTIA develops the Administration position on this matter.
    Mr. Turner. 23. The National Positioning, Navigation & Timing (PNT) 
Engineering Forum (NPEF) report recommends that the U.S. Government 
should ``conduct more thorough studies on the operational, economic and 
safety impacts of operating the LightSquared Network.'' What additional 
studies and analysis do your organizations (or, you in your 
professional opinion) believe need to be conducted and why?
    Mr. Nebbia. 23. Please see my answers to Questions 4, 9, 17, and 
21, as well as NTIA's September 9, 2011, letter, which is available at: 
http://www.ntia.doc.gov/files/ntia/publications/
stricklingletter_09092011.pdf.
    Mr. Turner. 24. Describe your organization's involvement in the FCC 
process leading to the FCC's January 2011 conditional waiver to 
LightSquared. Was the Department of Defense, in particular, able to 
register its concerns with the FCC prior to its decision in January, 
and if so, how were those concerns addressed?
    Mr. Nebbia. 24. Beginning last January, prior to the FCC's Order, 
and continuing to this day, NTIA has expressed serious concerns on 
behalf of Federal entities--including the Department of Defense--
regarding potentially harmful interference to GPS-reliant systems from 
LightSquared's proposed terrestrial operations. On January 12, 2011, 
NTIA advised the FCC that the LightSquared proposal raised significant 
interference concerns that warranted a full evaluation to ensure that 
LightSquared's proposed terrestrial network would not adversely impact 
GPS and other critical Federal systems. \4\ The FCC's January 26, 2011, 
Waiver Order stated that the FCC would not allow LightSquared to 
commence operations until ``the Commission, after consultation with 
NTIA, concludes that the harmful interference concerns have been 
resolved and sends a letter to LightSquared stating that the process is 
complete.'' \5\ NTIA appreciates that the FCC has taken very seriously 
the concerns raised by NTIA on behalf of Federal agencies in this 
matter. We look forward to providing thorough, expert input to the 
Commission as it moves toward a final decision in this matter. Please 
see my September 15 testimony before your Subcommittee for further 
elaboration on NTIA's involvement with this issue.
---------------------------------------------------------------------------
    \4\ See Letter from Lawrence E. Strickling, Assistant Secretary for 
Communications and Information and NTIA Administrator, U.S. Department 
of Commerce, to Julius Genachowski, Chairman, Federal Communications 
Commission (Jan. 12, 2011), available at http://www.ntia.doc.gov/fcc-
filing/2011/letter-regarding-lightsquaredsapplication-provide-mssatc-
service.
    \5\ LightSquared Subsidiary LLC; Request for Modification of its 
Authority for an Ancillary Terrestrial Component, SAT-MOD-2010118-
00239; Call Sign: S2358, Order and Authorization (Order), 26 F.C.C. 
Rcd. 566 (2011).
---------------------------------------------------------------------------
    Mr. Turner. 25. Are your organizations concerned that the FCC can 
provide final approval for LightSquared operations prior to resolving 
the GPS interference issues?
    Mr. Nebbia. 25. From the outset, the Federal agencies expressed a 
desire to resolve all interference concerns prior to granting a waiver. 
However, the FCC's January 26, 2011, Waiver Order clearly stated that 
the FCC would not allow LightSquared to commence operations until ``the 
Commission, after consultation with NTIA, concludes that the harmful 
interference concerns have been resolved and sends a letter to 
LightSquared stating that the process is complete.'' \6\ Both the NTIA 
and the FCC have requested additional testing to determine the extent 
of interference from LightSquared's proposed network. NTIA appreciates 
that the FCC has taken very seriously the concerns raised by NTIA on 
behalf of Federal agencies in this matter, as well as its commitment to 
ensure that these concerns are resolved before permitting LightSquared 
to begin commercial operations. We look forward to providing thorough, 
expert input to the Commission as it moves toward a final decision in 
this matter.
---------------------------------------------------------------------------
    \6\ Id.
---------------------------------------------------------------------------
    Mr. Turner. 26. There appears to be a tension between national 
space policy, which seeks to mitigate harmful interference to GPS, and 
national broadband policy, which in this particular case, would cause 
harmful interference to GPS. How do we reconcile these two policies?
    Mr. Nebbia. 26. GPS provides services and benefits of great utility 
and value to the nation, and NTIA is committed to protecting GPS users 
from interference. As the manager of Federal agency spectrum use, NTIA 
is focused on enabling Federal agencies to perform their missions while 
ensuring, to the greatest extent possible, that those agencies use and 
share spectrum efficiently and effectively. Beginning last January and 
continuing to this day, NTIA has expressed serious concerns on behalf 
of Federal entities regarding potentially harmful interference to GPS-
reliant systems from LightSquared's proposed terrestrial operations and 
has urged the FCC not to permit LightSquared to commence operations 
until those concerns have been resolved. At the same time, NTIA is 
collaborating with the FCC to identify and make available over the next 
decade an additional 500 megahertz of spectrum for fixed and mobile 
wireless broadband by either reallocating or creating opportunities to 
share spectrum currently used by commercial or Federal users. The goal 
is to nearly double over the next decade the amount of spectrum that is 
currently available for commercial wireless broadband. By doing so, the 
NTIA and FCC will help spur innovation, expand economic growth and job 
creation, and preserve America's global technology leadership. NTIA is 
working diligently to consider all available data in order to address 
these goals in the most rapid and responsible manner possible.
    Mr. Turner. 27. Is LightSquared the only current or planned 
broadband provider where the GPS interference concern is an issue? How 
are other interference issues being resolved to enable co-existence of 
broadband and GPS services?
    Mr. Nebbia. 27. NTIA leads and manages the IRAC, which is comprised 
of representatives from 19 Federal agencies that provide advice to NTIA 
on spectrum policy matters. As part of its Federal spectrum management 
duties, NTIA, in consultation with the IRAC, regularly reviews systems 
coming into use to determine their potential for interference into 
other spectrum bands used by Federal agencies. NTIA has reviewed a 
number of operations for potential interference to GPS. NTIA is not 
aware of another MSS provider with proposed operations that pose 
similar interference concerns for GPS users.

    Mr. Turner. 1. I have learned that during the testimony 
coordination process, you were asked to include the following in your 
prepared remarks:

    ``The Administration believes that we must protect existing GPS 
users from disruption of the services they depend on today and ensure 
that innovative new GPS applications can be developed in the future. At 
the same time, recognizing the President's instruction to identify 500 
MHz of new spectrum for innovative new mobile broadband services, we 
will continue our efforts at more efficient use of spectrum. Therefore, 
in the short run, we will participate in the further testing required 
to establish whether there are any mitigation strategies that can 
enable LSQ operation in the lower 10MHz of the band. We also encourage 
commercial entities with interests to work with LightSquared toward a 
possible resolution, though any proposed mitigation must be subjected 
to full testing. We hope that testing can be complete within 90 days. 
The challenge of meeting the President's goal also depends on long-term 
actions by Federal agencies in the area of research and development, 
procurement practices that encourage spectrally-efficient applications, 
and new policy development.''

    a. Who, specifically, asked that this be included?
    b. If you declined to include the language, in whole or in part, 
please describe why.
    c. Did anyone in the Administration attempt to persuade you to 
include the language? Who?
    Mr. Russo. 1a. As part of the normal Legislative Referral 
Memorandum (LRM) process, I received guidance to include this paragraph 
in my testimony from the Office of Management and Budget (OMB) on 
August 1, 2011. I understand that the language was informed by the 
Office of Science and Technology Policy (OSTP).
    1b. I included this entire paragraph exactly as written with the 
exception of the one sentence that established a target deadline for 
completion of testing. I expressed my reservations about including this 
sentence to OMB on August 2, 2011. I objected to only this one sentence 
because I had low confidence testing would be completed by November 3, 
2011, as implied. At the point in time when I was testifying, we had 
not even begun test planning and therefore I believed this was an 
unrealistic target.
    1c. No one pressured me to include the language. I omitted the one 
sentence I did not agree with and subsequently the testimony was 
cleared by OMB through the standard process.
    Mr. Turner. 2. Are your responses to these QFRs your own views or 
those of your agency? Have your responses been approved/edited by 
anyone other than yourself or someone reporting to you?
    Mr. Russo. 2. These QFR responses are my own views, although I 
sought input from representatives from all the agencies that are 
stakeholders in GPS. Once I drafted the responses, I sent them out to a 
wide array of GPS experts across the Federal Government for fact-
checking and editing. And like all Federal agency witnesses, I 
submitted my final draft for approval to OMB and incorporated comments 
received back from the LRM process to get final clearance.
    Mr. Turner. 3. Please describe when you and your agency became 
aware of the LightSquared network proposal and its potential for 
significant interference.
    Mr. Russo. 3. The National Coordination Office (NCO) is an 
administrative office serving the National Space-Based Positioning, 
Navigation and Timing Executive Committee (EXCOM). The NCO itself is 
not a decision-making or policy-making body. The EXCOM is comprised of 
the Deputy Secretaries of the nine different Federal departments or 
agencies that are the principal Government stakeholders in GPS and 
systems that augment or back-up GPS.
    The issue was brought to the NCO's attention on December 21, 2010, 
in the context of LightSquared's application for a waiver to the 
integrated service rules, which would have resulted in a de facto re-
purposing of the spectrum for terrestrial broadband instead of Mobile 
Satellite Service (MSS). This represented a significant change to the 
interference environment in terms of the number and density of the 
Ancillary Terrestrial Component (ATC) base stations we would expect to 
see. I immediately brought the issue to the attention of the EXCOM's 
Executive Steering Group (Assistant Secretary-level) and on December 
27, 2010, I wrote to NTIA to request any action on LightSquared's 
request for waiver be deferred until testing could be performed. On 
January 3, 2011, I provided a point paper to all the members of the 
EXCOM (Deputy Secretary-level) and requested the Deputy Secretary of 
Defense engage the FCC Chairman to seek a delay to the waiver decision 
until specific interference effects and mitigation actions could be 
identified.
    Mr. Turner. 4. LightSquared has recently announced that it has 
solved the interference issue for 99.5 percent of GPS users.
    a. Do you agree with this statement?
    b. What is the solution?
    c. Is it a solution for uses of GPS for which you are responsible?
    d. Has it been tested by the Federal Government? If so, please 
provide details.
    Mr. Russo. 4a. No.
    4b. LightSquared's 99.5 percent number is associated with their 
``Recommendation Paper'' filed with the FCC on June 30, 2011. I 
included a summary of this Paper's recommendations in my written 
testimony to this subcommittee on September 15, 2011, and discussed its 
implications in both the oral and written testimony. The LightSquared 
recommendation paper has three main points:

        a)   Lower Power. LightSquared proposes operating at 
        significantly lower power than currently authorized by FCC. 
        They propose to operate at a maximum base station EIRP per 
        sector for a single carrier at 32 dBW. This was the power level 
        authorized for LightSquared's predecessor in 2005 and it was 
        also the maximum level used for live-sky transmission tests 
        done this past April through June. However, the current power 
        authorized by the FCC is 10 times higher than this level to 
        allow for future growth.

        b)   Standstill Period. LightSquared proposes they will not 
        deploy the upper 10 MHz of its terrestrial network without 
        receiving explicit approval from the FCC. The standstill period 
        is undefined, but not less than six months. The purpose of the 
        standstill period is to allow GPS device manufacturers time to 
        improve their equipment to coexist with LightSquared.

        c)   Initial Operations Restricted to the Lower 10 MHz Channel. 
        LightSquared will start operations in the lower channel instead 
        of the upper channel as originally planned. This channel is 
        separated from the GPS frequency by 23 MHz, which greatly 
        reduces interference.

    4c. The Executive Committee I serve is responsible for helping to 
implement the President's policy with respect to GPS use `` . . . for 
U.S. national and homeland security, civil, scientific, and commercial 
purposes.''
    No, the recommendation is not a solution for these uses, primarily 
because of the ``standstill'' provision, which means LightSquared will 
still transmit high power terrestrial signals near the GPS L1 spectrum 
at some point in the future. In addition, even the lower channel 
transmission, with the lower power limitation still interferes with 
some GPS users.
    4d. The Government conducted extensive testing of the LightSquared 
system in April 2011. The power tested was the same ``lower power'' in 
the recommendation, which is actually the current technical limit of 
the LightSquared hardware. Most of the data points conducted during the 
``live-sky'' tests in Las Vegas were significantly below this level. 
The tests also included a dual-channel (upper and lower 10 MHz) and 
therefore fairly represented what we understand to be the end-state 
configuration (after ``standstill''). However, the Government tests did 
not extensively test operations in only the lower 10 MHz, which is a 
key part of LightSquared's current recommendations. Some data was 
collected in what the Government test report refers to as an ``initial 
exploratory evaluation,'' but it must be remembered this signal 
configuration was not proposed by LightSquared until several months 
after the Government testing.
    The Government tests conclusively demonstrated that LightSquared's 
proposed dual-channel deployment causes unacceptable interference to 
all types of GPS applications. However, the testing of the ``10 MHz 
Low'' now proposed as the first phase of LightSquared's new deployment 
was insufficient to reach a conclusion. Therefore, the Government has 
requested additional testing on this recommendation. The details of the 
Government testing conducted earlier this year were attached to the 
written version of my testimony in the document called ``Assessment of 
LightSquared Terrestrial Broadband System Effects on GPS Receivers and 
GPS-dependent Applications'' from the National Space-Based Positioning, 
Navigation and Timing Systems Engineering Forum (NPEF).
    Mr. Turner. 5. General Shelton stated that he believed that 
LightSquared's filter ``solution'' could cost billions of dollars over 
more than a decade. Who would be obligated to pay for the costs of 
adding filters?
    Mr. Russo. 5. The FCC has not yet made a determination as to who 
will pay for the mitigation of LightSquared interference to GPS.
    The Executive Committee for Space-Based Positioning, Navigation and 
Timing believes the public sector should not bear any financial 
responsibility for the cost of retrofitting any filters (if they prove 
to be effective). In the original 2003 Order granting the Ancillary 
Terrestrial Component (ATC) license to LightSquared's predecessor, the 
FCC clearly placed the responsibility for ensuring compatibility on the 
ATC service provider:

          ``We [the FCC] adopt technical parameters for ATC operations 
        in each of the bands at issue designed to protect adjacent and 
        in-band operations from interference from ATC. We fully expect 
        that these operational parameters will be sufficient. 
        Nevertheless, in the unlikely event that an adjacent MSS or 
        other operator does receive harmful interference from ATC 
        operations, either from ATC base stations or mobile terminals, 
        the ATC operator must resolve such interference.''
          This responsibility is still placed upon the ATC service 
        provider in the FCC Rules, specifically in 47 CFR Sec. 25.255.

    If, for any reason, the FCC concludes 47 CFR Sec. 25.255 does not 
apply, then the costs of mitigation would likely be borne by the 
Federal, State, and local agencies that own and operate the GPS systems 
and by commercial users. LightSquared has offered to pay up to $50 
million for retrofitting or reequipping Federal agencies.
    Mr. Turner. 6. In a September 29, 2011, Washington Post article by 
Cecilia Kang, it was reported that LightSquared chief executive Sanjiv 
Ahuja said during an interview on C-SPAN's ``The Communicators'' that 
the company is offering Federal agencies ``a sufficient amount of money 
to replace most receivers or fix most receivers out there.''
    a. Please provide an estimate of how much money LightSquared would 
have to spend to ``replace most receivers or fix the Federal 
Government's GPS receivers.''
    b. How much has the United States Government spent on its GPS 
receivers?
    c. How much have GPS users other than the United States spent on 
their GPS receivers?
    Mr. Russo. 6a. The cost is unknown because the number and types of 
GPS receivers that would have to be replaced or fixed is unknown. This 
will depend on the outcome of the additional testing requested by the 
FCC and will also depend very significantly on whether the end-state 
signal configuration is dual-channel (``upper and lower 10 MHz'') or 
single channel (``lower 10 MHz only''). It will also depend on how long 
the ``standstill'' period is before LightSquared deploys its upper 
channel, if the lower 10 MHz-only regime is not permanent.
    6b. The U.S. Government as a whole does not track the total amount 
it spends on GPS receivers, but the Department of Defense alone has 
spent $9.3B on receivers according to an October 2011 report by the 
Congressional Budget Office. The FAA reports it has already invested 
more than $3B in GPS equipment through FY 2011, with another $8B 
planned in GPS infrastructure investments planned through FY 2018.
    Industry sources put the total Government figure at a minimum $47B 
for GPS infrastructure and devices, although this likely includes more 
than just GPS receivers.
    6c. According to the Space Foundation, the total global 
expenditures are over $55B per year. The U.S. portion of those 
expenditures is between 23-28 percent.
    Mr. Turner. 7. Mr. Russo, my understanding is that you solicited 
all Federal Government agencies with GPS equities on their concerns 
with the LightSquared proposal. Please detail which agencies did and 
did not respond to your solicitation. If an agency did not respond, 
please explain, to the best of your understanding, why. Are you aware 
of any Government position papers on LightSquared interference which 
have been provided to the National Coordination Office or to the NTIA 
that have not been forwarded to the FCC and then made public? If so, 
why were they not made public immediately?
    Mr. Russo. 7. All member agencies of the National Executive 
Committee for Space-Based Positioning, Navigation and Timing (EXCOM) 
have provided information to NTIA about their concerns with the 
LightSquared proposal. I am unaware of the manner and extent to which 
NTIA will factor in these concerns in its recommendation to the FCC.
    At the request of the EXCOM, I tasked each member agency to 
quantify the economic and operational impact of mitigating GPS 
interference and to provide their statements to NTIA. Not all agencies 
were able to provide the requested statements because of the 
uncertainty of the final end-state signal configuration and of the 
unknown effectiveness of mitigation techniques. Some were able to 
answer only in general terms, while others did make an ``order of 
magnitude'' estimate. DOD did not provide a response at all, citing 
insufficient information as described by Ms. Takai in her testimony to 
this Subcommittee. NTIA has asked Federal agencies not to make any of 
these statements public yet because they are considered pre-decisional 
and part of the deliberative process of the Executive Branch.
    Mr. Turner. 8. LightSquared has proposed, as part of its ``lower 10 
MHz'' option a ``standstill'' on the upper 10 MHz of the spectrum 
adjacent to the GPS signal. At the same time, LightSquared is said to 
believe that it needs access to its full spectrum, both the lower and 
the upper, to be profitable.
    a. Please explain what the ``standstill'' means and what terms 
LightSquared is proposing for the ``standstill.''
    b. Has LightSquared indicated the ``upper 10'' of the spectrum is 
completely, permanently off-the-table? Is that what the ``standstill'' 
means?
    c. If the ``standstill'' was only a matter of a few years, what 
would that mean to your agencies?
    d. Should Congress, or the FCC, codify somehow the terms of the 
``standstill'' if it is ultimately determined that the ``lower 10 MHz'' 
option is acceptable?
    Mr. Russo. 8a. I believe LightSquared intends the ``standstill'' 
term to mean that they wish to have approval to operate their network 
on the ``lower 10 MHz'' channel immediately, but agrees the current 
conditions on the upper channel should remain in place for an undefined 
period of time (but not less than six months).
    During the standstill period, LightSquared would expect to continue 
to work with the FCC, the NTIA, and Federal agencies on GPS receiver 
engineering and design solutions to allow LightSquared to be able to 
use the upper channel for their future capacity requirements.
    The removal of the conditions for the upper channel would require 
FCC approval, in consultation with NTIA.
    8b. No, this is not what ``standstill'' means. Standstill indicates 
that LightSquared seeks to use the ``upper 10'' at some point in the 
future. The standstill period is meant to give the Government and the 
GPS community time to find solutions to permit coexistence.
    LightSquared has referred to the ``upper 10'' being off-the-table 
in numerous public statements, but has not indicated this in any 
official filing with the FCC.
    --On June 23, Mr. Carlisle, Executive Vice President of 
LightSquared testified to the House Committee on Transportation and 
Infrastructure that LightSquared would delay operations in the upper 10 
MHz and sought a ``glide path'' of 2-3 years before using this portion 
of their spectrum.
    --In its June 30 ``Recommendation Paper'', LightSquared states:

          ``While LightSquared intends ultimately to deploy a network 
        using a full
        complement of terrestrial frequencies operating at appropriate 
        power levels, in order to provide LTE capacity and service 
        levels to its customers, it will delay incorporating into its 
        terrestrial network the upper 10 MHz of its frequencies . . . 
        ''

    --On September 8, Mr. Carlisle repeated in testimony to the House 
Committee on Space, Science and Technology the concept of a 
``standstill'' period for eventual upper 10 MHz operations. In follow-
on answers to Congressional Questions for the Record, Mr. Carlisle 
indicated this standstill period was on the order of 5-6 years.
    ``Standstill'' clearly implies eventual use of the upper 10 MHz.
    8c. Given the lengthy process for Agency budgeting, authorization 
and equipment procurements, most agencies would reequip based only on 
the projected end-state configuration. Unfortunately, the target date 
for the end-state is undefined. This makes it nearly impossible to 
build credible cost and impact estimates and to initiate requests for 
the required funding.
    Certainly Federal agencies do not want to begin lengthy and 
expensive procurement actions, only to have to reinitiate them again in 
a few years.
    8d. Yes, the FCC should codify all terms in their final ruling. If 
``lower 10 MHz'' is a permanent configuration, that needs to be 
specified. If it is approved as a temporary state, then the nature and 
timing of the final configuration need to be specified.
    Mr. Turner. 9. LightSquared's business plan calls for providing 
service to 260 million people by 2015. If LightSquared limited its 
network operations to its ``lower 10'' proposal, including lower power 
levels, how much of its business plan does it achieve? Does it need 
both the ``lower 10'' and ``upper 10'' megahertz bands to realize full 
coverage of 260 million people?
    Mr. Russo. 9. Our office has not been involved in any analysis or 
evaluation of LightSquared's business plans. However, an important 
point to consider is the difference between ``coverage'' and 
``capacity.'' LightSquared tells us that approval of the ``lower 10'' 
will allow them to realize full coverage of 260 million people as 
required by their agreement with the FCC. But just because someone is 
in the coverage area, does not mean they will be using LightSquared's 
service. The number of people actually using the service, as well as 
how they are using the service, determines the capacity needs. 
LightSquared projects the ``lower 10'' band is insufficient to meet 
their future capacity needs as demand for their broadband service 
grows.
    Mr. Turner. 10. Part of this proposal is a ``standstill'' on the 
use of the upper 10 MHz spectrum. What is a ``standstill'' and how 
would it work?
    Mr. Russo. 10. I believe LightSquared intends the ``standstill'' 
term to mean that they wish to have approval to operate their network 
on the ``lower 10 MHz'' channel immediately, but agrees the current 
conditions on the upper channel should remain in place for an undefined 
period of time (but not less than six months).
    During the standstill period, LightSquared would expect to continue 
to work with the FCC, the NTIA, and Federal agencies on GPS receiver 
engineering and design solutions to allow LightSquared to be able to 
use the upper channel for their future capacity requirements.
    The removal on the conditions for the upper channel would require 
FCC approval, in consultation with NTIA.
    Mr. Turner. 11. It has been said by the FCC, including the 
Chairman, that the FCC handles interference issues all the time, so we 
can trust it to handle this one. This is a troubling statement, as it 
seems to be suggesting that this case is a routine matter.
    Is it the public interest for the United States to have a GPS 
system that operates free of harmful interference? Is it the public 
interest for the U.S. to have set the global standard in precision, 
navigation and timing?
    Mr. Russo. 11. The answers are clearly ``yes'' to both. President 
Obama's Space Policy (June 2010) states:

          ``Provide continuous worldwide access, for peaceful civil 
        uses, to the Global Positioning System (GPS) and its 
        government-provided augmentations, free of direct user 
        charges;''

    And,

          ``The United States must maintain its leadership in the 
        service, provision, and use of global navigation satellite 
        systems (GNSS).''
    Mr. Turner. 12. The subcommittee has asked Mr. Knapp if the FCC has 
discussed with LightSquared whether it will include technology by two 
firms linked to the Communist Chinese People's Liberation Army, Huawei 
and ZTE Corp., in this 4G nationwide network, assuming it is approved 
in some configuration. Will you please take this back to LightSquared 
and provide a written response to this Committee for the record of the 
hearing?
    Mr. Russo. 12. On October 24, 2011, I received this response from 
Mr. Jeff Carlisle, Executive Vice President for LightSquared:

          ``The FCC has not discussed with LightSquared any specific 
        sourcing of the technology in our network. Regardless, 
        LightSquared will not include any technology from Huawei or ZTE 
        Corp. in any part of its network.''
    Mr. Turner. 13. Please give us an idea of the size and scope of the 
GPS system to include applications and users.
    Mr. Russo. 13. The Global Positioning System (GPS) is a U.S.-owned 
utility that provides users with positioning, navigation, and timing 
(PNT) services. This system consists of three segments: the space 
segment, the control segment, and the user segment. The U.S. Air Force 
develops, maintains, and operates the space and control segments.

    Space Segment:

    GPS satellites fly in medium Earth orbit (MEO) at an altitude of 
approximately 20,200 km. Each satellite circles the Earth twice a day.




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




    The satellites in the GPS constellation are arranged into six 
equally-spaced orbital planes surrounding the Earth, each containing 
four ``slots'' occupied by baseline satellites. This 24-slot 
arrangement ensures there are at least four satellites in view from 
virtually any point on the planet.
    The Air Force normally flies more than 24 GPS satellites to ensure 
coverage whenever the baseline satellites are serviced or 
decommissioned. The extra satellites may increase GPS performance but 
are not considered part of the core constellation. Currently, there are 
30 satellites operating with an additional four satellites still 
functional, but considered to be in ``residual'' status and not 
actively contributing to user navigation solutions.
    The GPS constellation has now attained the most optimal geometry in 
its 42-year history, maximizing GPS coverage for all users worldwide.

    Control Segment:

    The control segment consists of worldwide monitor and control 
stations that maintain the satellites in their proper orbits through 
occasional command maneuvers, and adjust the satellite clocks. It 
tracks the GPS satellites, uploads updated navigational data, and 
maintains health and status of the satellite constellation.




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




    User Segment:

    The user segment consists of the GPS receiver equipment, which 
receives the signals from the GPS satellites and uses the transmitted 
information to calculate the user's three-dimensional position and 
time. Most of the GPS receiver equipment is not built or owned by the 
U.S. Government. There are over a billion GPS receivers worldwide.

    Augmentations:

    To date, U.S. taxpayers have invested over $35B in GPS 
infrastructure and this figure does not include the extensive 
investment in systems that augment or enhance GPS services. These 
services include the FAA's Wide Area Augmentation System (WAAS), 
Department of Commerce's Continuously Operating Reference Stations 
(CORS), the U.S Coast Guard and Department of Transportation's 
Nationwide Differential Global Positioning System (NDGPS), NASA's 
Global Differential GPS (GDGPS), or any of the many international and 
commercial augmentation systems.

    Applications:

    GPS is used for many diverse applications; it would be impossible 
to adequately cover them in this response. A sampling of the civil 
applications include: agriculture, roads and highways, aviation, 
shipping/asset tracking, space, recreation, surveying/mapping, weather, 
disaster preparedness, public safety and disaster relief, rail safety, 
marine operations, and a host of environmental programs. In addition, 
the GPS timing service is critical to energy exploration and 
distribution, telecommunications, cyber networks, banking and finance, 
and numerous scientific and research applications.
    Mr. Turner. 14. Please elaborate to the extent possible in an open 
hearing on the military capabilities that rely on GPS.
    Mr. Russo. 14. GPS provides a constant worldwide source for highly 
precise position and time, both of which are critical for the safe and 
efficient conduct of military operations and for a transformation to 
net-centric operations. GPS enhances interoperability in all aspects of 
military combat operations because of its common-datum, common-grid, 
and common time capabilities. GPS has also been the catalyst for 
precision operations by increasing individual weapon effectiveness and 
minimizing collateral damage. GPS military applications are numerous 
and include: navigation, target tracking, precision munitions, 
communications, asset tracking, search and rescue, missile and 
projectile guidance, aviation, reconnaissance, delivery of humanitarian 
aid, blue-force tracking, and battlefield management.
    Mr. Turner. 15. LightSquared would operate in a different part of 
the spectrum (1525-1559 megahertz) than GPS (1559-1610 megahertz). Why 
is there an interference problem when the two systems would operate in 
different, but neighboring, parts of the spectrum?
    Mr. Russo. 15. The issue has to do with the differences between 
digital radio communications and digital radio navigation. For a 
communications signal, the receiving device must determine whether each 
bit is a zero or a one. Determining the sequence of zeros and ones, 
determines the message, which is the point of the transmission.
    For navigation, the incoming, one-directional signal sequence of 
zeros and ones is already known. What the receiver must determine is 
the precise time of the transition between the ones and zeros. In 
communications, a message with errors, or missing information, can be 
retransmitted. For navigation, errors create integrity issues and 
missing information cause a continuity issue that is critical to some 
real-time applications. For communications purposes, you only need to 
see one portion of the transmitted signal to be able to determine the 
message. For navigation purposes you need to see the full width of the 
signal. The wider the filter response, the more accurate the solution. 
However, if the filter receives too much unwanted energy (noise) it can 
experience something called ``overload'' or ``desensitization'' 
interference. Current GPS filters work fine in an environment where the 
neighboring signals are weak transmissions from other satellites. Many 
existing GPS filters are inadequate for the much higher power signals 
from ground-based towers.




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




    The notional chart above illustrates that GPS filters as they exist 
today allow full use of the entire width of the GPS signal and still 
reject the low power satellite transmissions from the band right below 
GPS. However, the much higher power terrestrial transmissions proposed 
by LightSquared overload the receiver (particularly for the upper 
channel transmission).
    It may be possible to build a filter system that excludes the 
higher power signals and still allows the receiver to see the full 
range of GPS signals. JAVAD GNSS claims to have a system of filters 
that can do this for the lower of the two LightSquared transmission 
channels (the one furthest to the left on the chart above), but not the 
closer of the two channels (or ``upper band'').
    Federal agencies are concerned even if the lower band filter 
solutions work, they will increase the cost, weight and power 
requirements of the GPS receiver, and negatively impact performance 
characteristics. In addition, it is unclear how the current installed 
user base would be addressed or who would bear the cost. FCC and NTIA 
have asked for additional testing to determine the effectiveness of 
LightSquared's proposed mitigation strategies and the impacts to 
application performance requirements.
    Mr. Turner. 16. What is the magnitude of the harmful interference 
and the national security implications of such interference? Discuss 
the results of the Department's testing and any specific examples that 
substantiate these observations?
    Mr. Russo. 16. The testing the Government did on the original 
LightSquared proposal earlier this year conclusively indicates harmful 
interference to every category of GPS user, including national security 
users. Gen. Shelton mentioned several specific examples in his 
testimony before this Committee in both the closed and open sessions. I 
defer a more specific discussion of national security implications to 
Ms. Takai, who testified on behalf of DOD.
    In my original written testimony, I included the unclassified 
portion of the Government's test report. Here are some excerpts 
relative to the civil applications (all of which assume LSQ operations 
in both the upper and lower band):

        1)   LightSquared's out-of-band emissions were within the 
        limits they had agreed to with GPS industry and significantly 
        better than what is required by the FCC
        2)   All GPS receiver applications (but not all receivers) were 
        impacted by the proposed network
                a.   Aviation receivers degraded between 0.9 and 19.3 
                km (for a single tower)
                        i.   Aggregate effects would deny aviation use 
                        of GPS for hundreds of km
                b.   Space receivers degraded as far as 305.5 km which 
                includes certain NASA satellites in low Earth orbit
                c.   Maritime receivers lost satellite tracking between 
                0.3 and 1.0 km
                d.   High Precision receivers lost satellite tracking 
                between 1.7 and 6.1 km
        3)   Anecdotal observations from single data points during live 
        transmission test
                a.   New Mexico State Police cruiser lost reception 600 
                ft from LSQ tower
                        i.   Police HQ also lost the location of the 
                        cruiser on their tracking system
                b.   An ambulance lost GPS tracking 1,000 ft from the 
                LSQ tower
                        i.   Also indicated speed of 9 MPH, while 
                        vehicle was actually stationary
                c.   Fire Department vehicle lost GPS at 1,000 ft from 
                LSQ tower
                        i.   Last reported location was not near actual 
                        location

    Some information was collected on LSQ's new proposal for starting 
operations in only the lower 10 MHz, but was insufficient for a 
conclusion.
    Mr. Turner. 17. The reviews undertaken suggest that there are 
certain GPS applications that, even with modification or complete 
redesign, would still not be able to perform their current mission in 
the presence of such network broadcasting directly adjacent to the GPS 
L1 band. What applications?
    Mr. Russo. 17. Certain applications use not only GPS L1 signals but 
also signals from the Mobile-Satellite Service (MSS) band right below 
it--the band where LightSquared operates. Since the augmentation 
signals they receive in the MSS band can come from any portion of that 
band, just redesigning the receiver cannot solve this issue. 
Applications that incorporate these MSS band augmentation signals 
include precision farming, military reconnaissance drones, surveying, 
and GM's ``On-Star'' automobile services.
    In other instances, applications may not achieve the extremely high 
precision they require, even if the proposed filters work properly. 
These applications may include natural hazard and environmental 
monitoring, and scientific/research functions. Further testing is 
needed to determine the effectiveness of proposed receiver 
modifications and their ultimate impact on mission performance.
    Mr. Turner. 18a. Is LightSquared allowed to build out a terrestrial 
network today?
    18b. What are the limitations, if any?
    18c. Under what circumstances could/would buildup be stopped?
    18d. Assuming FCC provides authorization for LightSquared to move 
forward with its deployment plans, as outlined in its November 2010 
filing, how would this build-out affect military systems and users in 
the near-term?
    Mr. Russo. 18a. Yes.
    18b. There are many limitations and conditions on LightSquared's 
build out of a terrestrial network. One of the most significant is that 
LightSquared may not commence offering commercial service until the GPS 
interference issues are resolved. On September 13, 2011, the FCC issued 
a Public Notice stating `` . . . additional targeted testing is needed 
to ensure that any potential services offered by LightSquared will not 
cause harmful interference to GPS operations.''
    18c. My understanding is only the FCC would have the authority to 
stop the buildup. I am not knowledgeable about the criteria they would 
use to decide this or the procedures they would use to implement their 
decision.
    18d. I believe Gen. Shelton covered this in his testimony to this 
Subcommittee when he testified that tests based on the original 
LightSquared deployment plans and original FCC authorization `` . . . 
demonstrated empirically that the LightSquared signals interfere with 
all types of receivers in the test.'' His testimony referenced 29 
different types of military receivers. I defer discussion of specific 
military system impacts to Ms. Takai and Gen. Shelton, and would expect 
that the details would be classified at SECRET or above.
    Mr. Turner. 19. Does LightSquared's June 30, 2011, submission to 
the FCC provide sufficient information on its ``lower 10'' proposal for 
your organizations to determine whether the proposal mitigates GPS 
interference?
    Mr. Russo. 19. Even LightSquared admits in their June 30, 2011, 
submission that the ``lower 10'' proposal does not mitigate GPS 
interference for all users. In numerous technical interchanges with 
FCC, NTIA, and LightSquared we have learned more about LightSquared's 
mitigation strategies which do not solely rely on the ``lower 10'' 
proposal. Their proposal partially relies on development of filters and 
antennas for GPS receivers which we will need to test.
    Mr. Turner. 20. The National Positioning, Navigation & Timing (PNT) 
Engineering Forum (NPEF) report recommends that the U.S. Government 
should ``conduct more thorough studies on the operational, economic and 
safety impacts of operating the LightSquared Network.'' What additional 
studies and analysis do your organizations (or, you in your 
professional opinion) believe need to be conducted and why?
    Mr. Russo. 20. In my professional opinion, the following additional 
studies and analyses need to be done:

        1)    Comprehensive testing of GPS receivers against the actual 
        proposed LightSquared signal configuration. The signal 
        configuration LightSquared states will mitigate interference 
        for 99.5 percent of GPS users was not part of the original 
        plan.
        2)    Systems-level testing in the expected operational 
        environment. Most of the testing to date has been component-
        level. Over the past decade, we have seen harmful interference 
        occur on integrated systems in tests, exercises and real-world 
        incidents that were difficult to create in the laboratory 
        environment.
        3)    Test and/or analysis of aggregate effects. With the 
        exception of Aviation-certified receivers, most of the data 
        reported so far has been based on a single LightSquared base 
        station. Under real conditions, interference effects from 
        multiple base stations can produce a larger effect.
        4)    More thorough testing of LightSquared handsets. To date, 
        actual handsets have been unavailable and the simulations we 
        have done are of questionable fidelity. The handsets are much 
        weaker in terms of power compared to base stations, but much 
        more numerous and are expected to be in close proximity to GPS 
        receivers.
        5)    Realistic testing of the effectiveness of LightSquared's 
        proposed mitigation solutions for both high-precision receivers 
        and GPS timing. LightSquared has proposed several different 
        timing antennas and filter systems that appear promising. 
        Government tests need to verify these can be incorporated in 
        high precision receivers and still permit the receivers to meet 
        their mission requirements.
        6)    Once the final end-state is determined, high-fidelity 
        cost estimates need to be done for the costs of retrofitting or 
        replacing existing GPS receivers and associated infrastructure.
    Mr. Turner. 21. Describe your organization's involvement in the FCC 
process leading to the FCC's January 2011 conditional waiver to 
LightSquared. Was the Department of Defense, in particular, able to 
register its concerns with the FCC prior to its decision in January, 
and if so, how were those concerns addressed?
    Mr. Russo. 21. The National Coordination Office (NCO) is an 
administrative office serving the National Space-Based Positioning, 
Navigation and Timing Executive Committee (EXCOM). The NCO itself is 
not a decision-making or policy-making body. The EXCOM is comprised of 
the Deputy Secretaries of the nine different Federal departments 
(including DOD) or agencies that are the principal Government 
stakeholders in GPS and systems that augment or back-up GPS.
    The issue was brought to the NCO's attention on December 21, 2010, 
in the context of LightSquared's application for a waiver to the 
integrated service rules, which would have resulted in a de facto re-
purposing of the spectrum for terrestrial broadband instead of Mobile-
Satellite Service (MSS). This represented a significant change to the 
interference environment in terms of the number and density of the 
Ancillary Terrestrial Component (ATC) base stations we would expect to 
see. I immediately brought the issue to the attention of the EXCOM's 
Executive Steering Group (Assistant Secretary-level) and on December 
27, 2010, I wrote to NTIA to request any action on LightSquared's 
request for waiver be deferred until testing could be performed. On 
January 3, 2011, I provided a point paper to all the members of the 
EXCOM (Deputy Secretary-level) and requested the Deputy Secretary of 
Defense engage the FCC Chairman to seek a delay to the waiver decision 
until specific interference effects and mitigation actions could be 
identified.
    The Department of Defense registered its concerns on several levels 
prior to the FCC decision. Mr. Price, the chief spectrum officer for 
the DOD, wrote to NTIA on December 28, 2010, to request deferment of 
action on LightSquared's waiver request and also to request formal 
Notice of Proposed Rulemaking (NPRM) to allow for a robust public 
record and adequate interference analysis. Ms. Takai, the DOD Chief 
Information Officer, personally engaged the NTIA Administrator to 
express national security concerns. The Deputy Secretary of Defense, 
Mr. Lynn, wrote to the FCC Chairman on January 12, 2011, to assert 
there was a `` . . . strong potential for interference to these 
critical National Security Systems.'' The Deputy Secretary strongly 
recommended deferral of the waiver decision until interference studies 
could be done.
    The concerns of DOD, and other Federal agencies, were also 
registered with the FCC in a January 12, 2011, from the NTIA 
Administrator to the FCC Chairman recommending that LightSquared not be 
permitted to offer service until the interference issues were resolved.
    The FCC did not agree to use the NPRM process or to defer the 
waiver as requested by DOD. However, it did address their concerns by 
making the waiver conditional on resolving the GPS interference 
concerns raised by DOD and others.
    Mr. Turner. 22. Are your organizations concerned that the FCC can 
provide final approval for LightSquared operations prior to resolving 
the GPS interference issues?
    Mr. Russo. 22. Yes, the organizations are concerned. However, FCC 
representatives at every level have assured us they will not provide 
final approval until the GPS interference issues are resolved. The FCC 
liaison to the Executive Committee made that statement unequivocally to 
the Deputy Secretaries that sit on the Committee. FCC also testified to 
this intent to this Subcommittee. And the FCC Chairman himself has 
said, `` . . . the commission will not permit LightSquared to begin 
commercial service without first resolving the commission's concerns 
about potential widespread harmful interference to GPS devices . . . 
Under no circumstances would I put at risk our nation's national 
defense or public safety.''
    Mr. Turner. 23. There appears to be a tension between national 
space policy, which seeks to mitigate harmful interference to GPS, and 
national broadband policy, which in this particular case, would cause 
harmful interference to GPS. How do we reconcile these two policies?
    Mr. Russo. 23. These policies are not mutually exclusive. The 
President issued a comprehensive Space Policy in June 2010, which 
supported maintaining U.S. leadership in space-based positioning, 
navigation and timing services and also reinforced a long-standing 
commitment to offer these services on a worldwide, continuous basis 
free from interruption. Also in June 2010, the President issued an 
Executive Memo seeking to make available additional spectrum for 
wireless broadband, but included a provision to `` . . . ensure no loss 
of critical existing and planned Federal, State, Local and Tribal 
Government capabilities.''
    Therefore, the Administration's guidance to Federal agencies seems 
clear: We should do what we can to collaborate with FCC to find ways to 
improve the efficiency of spectrum use, but not at the expense of 
existing and planned GPS services.
    Mr. Turner. 24. Is LightSquared the only current or planned 
broadband provider where the GPS interference concern is an issue? How 
are other interference issues being resolved to enable co-existence of 
broadband and GPS services?
    Mr. Russo. 24. The Executive Committee requested a briefing on this 
topic from FCC and NTIA last year after the Presidential Memorandum on 
Spectrum was issued. On November 5, 2010 the Associate Administrator of 
NTIA briefed the Executive Committee on the implications of the 
Broadband initiative on GPS and indicated there were no known impacts. 
The Chief of the Office of Engineering and Technology for the FCC was 
also present and had no concerns. However, as the Broadband plan is 
implemented and evolves, the Executive Committee will continue to work 
closely with NTIA and FCC on any new developments that could impact GPS 
service. The Committee's Executive Steering Group has opened an Action 
Item to create a Spectrum Protection Plan for GPS.

    Mr. Turner. 1. I have learned that during the testimony 
coordination process, you were asked to include the following in your 
prepared remarks:

    ``The Administration believes that we must protect existing GPS 
users from disruption of the services they depend on today and ensure 
that innovative new GPS applications can be developed in the future. At 
the same time, recognizing the President's instruction to identify 500 
MHz of new spectrum for innovative new mobile broadband services, we 
will continue our efforts at more efficient use of spectrum. Therefore, 
in the short run, we will participate in the further testing required 
to establish whether there are any mitigation strategies that can 
enable LSQ operation in the lower 10MHz of the band. We also encourage 
commercial entities with interests to work with LightSquared toward a 
possible resolution, though any proposed mitigation must be subjected 
to full testing. We hope that testing can be complete within 90 days. 
The challenge of meeting the President's goal also depends on long-term 
actions by Federal agencies in the area of research and development, 
procurement practices that encourage spectrally-efficient applications, 
and new policy development.''

    a. Who, specifically, asked that this be included?
    b. If you declined to include the language, in whole or in part, 
please describe why.
    c. Did anyone in the Administration attempt to persuade you to 
include the language? Who?
    Mr. Knapp. 1. I did not receive any requests to include this 
language, or any other statement from the Administration in my 
testimony.
    Mr. Turner. 2. Are your responses to these QFRs your own views or 
those of your agency? Have your responses been approved/edited by 
anyone other than yourself or someone reporting to you?
    Mr. Knapp. 2. Based on an agreement with your staff on September 
14, 2011, FCC Chairman Genachowski designated me as the Commission 
witness for the September 15, 2011, hearing before the Strategic Forces 
Subcommittee. I drafted my own testimony in consultation with other 
Commission staff consistent with standard procedure, and I stand by the 
contents of my testimony. Since I served as the Chairman's designee, 
his staff also reviewed the testimony before it was submitted.
    Mr. Turner. 3. Please describe when you and your agency became 
aware of the LightSquared network proposal and its potential for 
significant interference.
    Mr. Knapp. 3. The specific answer to your question is that prior to 
December 2010, I was unaware of the potential for receiver overload of 
GPS devices, although I now know that the GPS industry raised some 
concerns in comments and provided assurances of mitigation in 
September, 2010. To assist the Committee in its understanding of this 
matter, a more complete explanation of the procedural history is 
warranted. The relevant timeframe at issue is 2001 to the present. 
During 2001, I served as Chief of the Policy and Rules Division in the 
Office of Engineering and Technology (OFT) and became Deputy Chief of 
OET in 2002. In 2006, then-FCC Chairman Kevin Martin appointed me as 
OFT Chief.
    Additionally, it should be understood that the Commission typically 
addresses interference issues by setting parameters for transmitters to 
ensure that they do not emit excessive energy into frequency bands used 
by other services. The Commission then relies upon equipment 
manufacturers, service providers, and other stakeholders to ensure 
their receivers comply with those technical parameters. We also look to 
these equipment manufacturer and service providers to provide technical 
information on the performance characteristics of their receivers. They 
are best positioned to know of their limitations and specifications and 
should notify the Commission if overload interference is a potential 
issue as a result of receiver characteristics. Because terrestrial 
transmitters were expected to operate with some frequency separation 
from the edge of the GPS band, the potential overload problem was not 
one that the FCC would have examined in the ordinary course of the 
proceeding.
    Below is the procedural history of the LightSquared matter:

    <bullet>  Commission issues Notice of Proposed Rulemaking to permit 
mobile satellite service providers to offer an ancillary component in 
response to requests filed by Mobile Satellite Ventures Inc. and New 
ICO Global Communications.
    <bullet>  Proposal invites comment on whether the proposed rules 
would protect GPS systems. See Flexibility for Delivery of 
Communications by Mobile Satellite Service Providers in the 2 GHz Band, 
the L-Band and the 1.6/2.4 GHz band, Notice of Proposed Rulemaking, TB 
Docket No. 01-185, 16 FCC Rcd. 15,532 (2001).

    2003

    <bullet>  Commission adopts rules permitting MSS licensees to 
integrate ATC into their satellite networks to provide mobile service 
to areas where satellite signals are degraded or blocked (i.e., urban 
areas and inside of buildings). See Flexibility for Delivery of 
Communications by Mobile Satellite Service Providers in the 2 GHz Band, 
the L-Band, and the 1.6/2.4 GHz Bands, TB Docket Nos. 01-185, 02-364, 
Report and Order, 18 FCC Rcd. 1962 (2003), as modified by Order on 
Reconsideration, 18 FCC Rcd. 13,590 (2003).
    <bullet>  Rules require MSS licensees to offer an integrated 
satellite and terrestrial service.
    <bullet>  They must maintain a viable satellite service and cannot 
offer terrestrial service separately.
    <bullet>  Rules also allow up to 1,725 terrestrial base stations to 
be deployed in the L-band, which includes the spectrum adjacent to and 
below the GPS band.

    2004

    <bullet>  Commission's International Bureau authorizes SkyTerra 
(formerly MSV), to offer an integrated MSS/ATC service to users 
equipped with dual-mode MSS/ATC mobile devices. Authorization provides 
for expansive ATC, including the deployment of thousands of terrestrial 
base stations. See Mobile Satellite Ventures Subsidiary LLC Application 
for Minor Modification of Space Station License for AMSC-1, File Nos. 
SAT-MOD-20031 118-00333, SAT-MOD-20031 118-00332, SESMOD-20031 118-
01879, Order and Authorization, 19 FCC Rcd. 22,144 (Int'l Bur. 2004).

    2005

    <bullet>  Commission modifies the MSS ATC rules in response to 
petitions for reconsideration of the 2003 Order.
    <bullet>  Adopted rules were (and remain) consistent with the 
recommendations of the GPS industry and the Executive Branch, which 
included input from the Department of Defense.
    <bullet>  Commission removes the previously adopted limitation on 
the number of terrestrial base stations that may be deployed. See TB 
Docket Nos. 01-185, Memorandum Opinion and Order and Second Order on 
Reconsideration 20 FCC Rcd. 4616 (2005) (ATC Reconsideration Order).
    <bullet>  Extensively discusses the potential overload interference 
from L-band (SkyTerra) ATC base stations to Inmarsat mobile satellite 
terminals as well as potential overload interference from 2 GHz ATC 
mobile devices operating above 1995 MHz to PCS mobile receivers 
operating in the adjacent band below 1995 MHz.
    <bullet>  No one raises receiver overload interference issue.

    2009 (March-April)

    <bullet>  Harbinger and SkyTerra together file an application for 
transfer of control of SkyTerra to Harbinger. SkyTerra subsequently 
files an application for modification of its authority for an ancillary 
terrestrial component, including requests for waivers of a number of 
the Commission's rules for ATC operation. Commission invites public 
comment on both requests, triggering extensive comments.

    2009 (July-August)

    <bullet>  GPS industry raises concerns about SkyTerra's application 
for ATC modifications, stating that the existing out-of-band emissions 
limits would be insufficient to protect against interference to GPS 
from LightSquared's planned low power base stations and indoor ``femto-
cells.'' Note out-of-band emissions are not the same as receiver 
overload, which is the basis of the current controversy. No one raises 
receiver overload issue. SkyTerra and the U.S. GPS Industry Council 
submit a joint letter to the Commission stating that the out-of-band 
emissions interference issues had been resolved. No commenter raises 
any other concerns about GPS interference.

    2010 (March 15)

    <bullet>  National Broadband Plan Recommendation 5.8.4 calls for 
the FCC to accelerate terrestrial deployment in the MSS spectrum.

    2010 (March 26)

    <bullet>  Commission's bureaus and offices issue two orders 
addressing the 2009 Harbinger and SkyTerra requests and comments:

        (First Order) SkyTerra Subsidiary LLC Application for 
        Modification Authority for Ancillary Terrestrial Component, 
        Order and Authorization, 25 FCC Rcd. 3043 (Int'l Bur. 2010).
        >   Authorizes the transfer of control from SkyTerra to 
        Harbinger, explaining Harbinger's plans to construct a hybrid-
        satellite-terrestrial network and noting terrestrial component 
        would cover 90 percent of the United States.
        >   Notes Harbinger's plans to deploy a network that will cover 
        100 percent of the U.S. population via the satellite component 
        and ultimately over 90 percent of the population via its 
        terrestrial component.
        >   Observes that if Harbinger successfully deploys its 
        integrated satellite/terrestrial network, it would be able to 
        provide mobile broadband communications in areas where it is 
        difficult or impossible to provide coverage by terrestrial base 
        stations.
        >   Does not waive or alter MSS/ATC rules.
        (Second Order) See SkyTerra Communications, Inc., Transferor 
        and Harbinger Capital partners Funds, Transferee Applications 
        for Consent to Transfer Control of SkyTerra Subsidiary, LLC, lB 
        Docket No. 08-184, Memorandum Opinion and Order and Declaratory 
        Ruling, 25 FCC Rcd. 3059 (TB, OET, WTB, rel. March 25, 2010).
        >   Modifies SkyTerra's authorization to provide ATC, applying 
        conditions to address all technical concerns raised in the 
        comment cycle and granting a request to increase the power 
        level of the base stations.
        >   Commission's bureaus coordinate Order with relevant 
        Executive Branch agencies. Notes DOD's concerns about potential 
        interference to national security systems in certain 
        circumstances and instructs the licensee to continue to work 
        with DOD to resolve these concerns.
        >   No one raises receiver overload interference issue.

    2010 (July-September)

    <bullet>  Commission follows National Broadband Plan 
recommendations and initiates a rule making to provide greater 
flexibility to deploy terrestrial service in the mobile satellite 
service. See Notice of Proposed Rulemaking and Notice of Inquiry, ET 
Docket No. 10-142, 25 FCC Rcd. 9481.
    <bullet>  GPS Industry Council files comments in September that 
include reference to the possibility of receiver overload interference 
to GPS receivers at a distance of about 100 meters from ATC base 
stations based on state-of-the-art filtering, and notes that for much 
of the mobile consumer UPS in use, including public safety (e.g., 911 
cellphones), the harmful interference effect would be somewhat worse 
than this case.
    <bullet>  UPS Council notes ``[i]n earlier Commission proceedings, 
the Council has worked collaboratively with MSS operators of ATC to 
seek mutual agreements that facilitate successful MSS ATC operations 
and avoid interference to the UPS installed base. The Council believes 
that solutions are available to mitigate the otherwise unavoidable 
harmful effects described in these comments and looks forward to 
working collaboratively with interested parties to explore these issues 
and potential solutions.''

    2010 (November-December)

    <bullet>  November 15: LightSquared announces the successful launch 
of its first next-generation satellite, SkyTerra 1.
    <bullet>  November 18: LightSquared files a request to modify its 
ATC authority to accommodate its business plan of selling data network 
capacity at wholesale, rather than retail (as SkyTerra had done). The 
request seeks to allow wholesale service providers to offer 
terrestrial-only handsets at the same power levels and conditions 
previously granted. See LightSquared Subsidiary LLC Request for 
Modification of its Authority for an Ancillary Terrestrial Component, 
SAT-MOD20101118-00239.
    <bullet>  Commission places November 18th request on Public Notice. 
See Policy Branch Information, Satellite Space Applications Accepted 
for Filing, Report No. SAT0073 8, Public Notice (rel. November 19, 
2010); see also LightSquared Subsidiary LLC Request for Modification of 
its Authority for Ancillary Terrestrial Component, SAT-MOD 20101118-
00239, Order, DA 10-2243 (TB, Sat. Div., rd. Nov. 26, 2010).
    <bullet>  GPS industry, GPS users and Federal interests object to 
LightSquared's planned terrestrial deployment alleging that the GPS 
environment will be changed by LightSquared's wholesale model because 
it will no longer be motivated to be cognizant of the impact on its own 
satellite service--based on a concern about major potential GPS 
interference due to ``receiver overload.''
    <bullet>  Limited technical data is submitted related to the scope 
of the receiver overload problem and no mitigation is submitted.

    2011 (January)

    <bullet>  International Bureau issues January 26th Order modifying 
LightSquared's authorization. Order provides a conditional waiver of 
the ATC ``integrated services'' rule to allow wholesalers to offer 
mobile terminals with only terrestrial capability, rather than ``dual 
mode'' capability (i.e., the ability to communicate in a single handset 
or terminal via either a satellite or a terrestrial network). Order 
establishes a process to investigate the GPS interference issue that 
had been raised and stipulates that LightSquared may not offer 
commercial service until the process is complete and the risk of 
harmful interference has been resolved.
    <bullet>  Order imposes numerous other conditions to ensure that 
LightSquared will continue to provide a commercially competitive 
satellite service and will continue to develop and make available in 
the marketplace dual mode MSS/ATC-capable devices.

    2011 (July)

    <bullet>  Technical Working Group submits report concerning results 
of testing on the GPS receiver overload issues.
    <bullet>  LightSquared states it will not utilize the upper 10 MHz 
of the L-Band in order to satisfy interference concerns.
    <bullet>  Commission issues a Public Notice requesting comment on 
the report.

    2011 (August)

    <bullet>  Commission receives over 3,000 comments in the 
proceeding.

    2011 (September)

    <bullet>  Commission releases Public Notice requiring additional 
testing. See Public Notice, Fed. Commc'ns Comm., Status of Testing in 
Connection with LightSquared's Request for ATC Commercial Operating 
Authority (Sept. 13, 2011).

    I should also note that I only recently learned that John Deere & 
Co. (Deere) in 2001 filed comments opposing the proposed merger between 
LightSquared's predecessor companies (Motient and TMI) based on 
concerns that this would reduce competition in the provision of mobile 
satellite service. Deere mentioned in a filing to that proceeding that 
terrestrial service contemplated under the merger could cause receiver 
overload interference to GPS. Inmarsat Ventures also filed an 
opposition to this merger and mentioned the possibility of overload 
interference to GPS. Neither party provided any data or analyses on 
this point in their filings a decade ago.
    As noted in the timeline above, the Commission subsequently issued 
a Notice of Proposed Rulemaking in 2001 seeking comment on proposals to 
deploy terrestrial service using the MSS spectrum. To my knowledge, 
neither Deere nor Inmarsat raised the issue of overload interference to 
GPS receivers within the context of the subsequent industry-wide MSS/
ATC rulemaking proceeding. I am unaware of any other filings that would 
have advised the Commission of potential interference caused by GPS 
receiver overload.
    Mr. Turner. 4. LightSquared has recently announced that it has 
solved the interference issue for 99.5 percent of GPS users.
    a. Do you agree with this statement?
    b. What is the solution?
    c. Is it a solution for uses of GPS for which you are responsible?
    d. Has it been tested by the Federal Government? If so, please 
provide details.
    Mr. Knapp. 4. LightSquared proposes several mitigation measures. 
First, LightSquared has proposed to initially use only the lower 10 MHz 
channel in its spectrum, a step that it believes would avoid harmful 
interference to the vast majority of existing GPS equipment without any 
modification. Second, LightSquared has stated that it has developed 
filters for certain types of GPS equipment that would otherwise still 
experience interference from its use of the lower channel.
    In accordance with the Commission's September 13 Public Notice, 
further tests and evaluations are underway relative to operation on the 
lower 10 MHz. NTIA currently is analyzing the results of tests designed 
to gauge whether LightSquared's proposed network will interfere with 
the operation of GPS receivers in cellphones, car navigation systems, 
and other consumer-oriented devices used for marine and outdoor 
recreation activities.
    NTIA also will review the results of separate tests planned for UPS 
receivers used for high-precision and timing applications. Those tests 
will include GPS devices modified with new filtering technology that 
LightSquared and other companies have said will solve interference and 
would need to be added to existing GPS devices. We cannot assess the 
effectiveness of these measures until the agencies have evaluated and 
tested the solution and LightSquared or the Executive Branch presents 
the data to the Commission.
    Mr. Turner. 5. General Shelton stated that he believed that 
LightSquared's filter ``solution'' could cost billions of dollars over 
more than a decade.
    <bullet>  Who would be obligated to pay for the costs of adding 
filters?
    <bullet>  Will the FCC lift the conditional waiver and allow a 
final waiver to go forward if the costs of the proposed filters are to 
be borne by the Federal Government?
    Mr. Knapp. 5. I have not been provided with the data or other 
sources of information General Shelton relied upon for his statement, 
and I have not been provided with any specific cost assessments. As I 
noted during the hearing, it would be premature to attempt to determine 
costs without first establishing and testing an engineering solution to 
the problem.
    <bullet>  Until an engineering solution is tested and vetted in the 
public record, any potential cost analysis or allocation would be 
premature.
    <bullet>  Under the January 26, 2011, Order, LightSquared must 
resolve all harmful interference claims before it can offer commercial 
service. The threshold question in any analysis of a filter solution 
would be whether the filter is effective and viable to retro-fit 
existing equipment.
    Mr. Turner. 6. In a September 29, 2011, Washington Post article by 
Cecilia Kang, it was reported that LightSquared chief executive Sanjiv 
Ahuja said during an interview on C-SPAN's ``The Communicators'' that 
the company is offering Federal agencies ``a sufficient amount of money 
to replace most receivers or fix most receivers out there.''
    a. Please provide an estimate of how much money LightSquared would 
have to spend to ``replace most receivers or fix the Federal 
Government's GPS receivers.''
    b. How much has the United States Government spent on its GPS 
receivers?
    c. How much have GPS users other than the United States spent on 
their GPS receivers?
    Mr. Knapp. 6a. See my answer to Question 5, above.
    6b. The Commission does not have access to any information on 
expenditures by other Government agencies for GPS equipment.
    6c. The Commission does not have data on the amount of money the 
public has spent on GPS equipment.
    Mr. Turner. 7. My understanding is that Mr. Russo solicited all 
Federal Government agencies with GPS equities on their concerns with 
the LightSquared proposal. Are you aware of any Government position 
papers on LightSquared interference which have been provided to the 
National Coordination Office or to the NTIA that have not been 
forwarded to the FCC and then made public? If so, why were they not 
made public immediately?
    Mr. Knapp. 7. I am not aware of any such papers.
    Mr. Turner. 8. LightSquared has proposed, as part of its ``lower 10 
MHz'' option a ``standstill'' on the upper 10 MHz of the spectrum 
adjacent to the GPS signal. At the same time, LightSquared is said to 
believe that it needs access to its full spectrum, both the lower and 
the upper, to be profitable.
    a. Please explain what the ``standstill'' means and what terms 
LightSquared is proposing for the ``standstill.''
    b. Has LightSquared indicated the ``upper 10'' of the spectrum is 
completely, permanently off-the-table? Is that what the ``standstill'' 
means?
    c. If the ``standstill'' was only a matter of a few years, what 
would that mean to your agencies?
    d. Should Congress, or the FCC, codify somehow the terms of the 
``standstill'' if it is ultimately determined that the ``lower 10 MHz'' 
option is acceptable?
    Mr. Knapp. 8a. Although LightSquared is best positioned to explain 
its own proposals, I understand LightSquared's current proposal is to 
initially deploy terrestrial operations on the lower 10 MHz channel. 
Further, the Commission's September 13, 2011, Public Notice 
specifically states that further targeted testing will focus on the 
lower 10 MHz channel.
    8b. LightSquared is not now proposing to use the upper 10 MHz 
channel.
    8c. The answer to this question would depend on the engineering 
solutions and the population of devices and their characteristics.
    8d. The current conditional waiver contained in the January 26, 
2011, Order appropriately addresses any potential use of this spectrum, 
by requiring that all harmful interference issues be resolved. 
LightSquared would not be permitted to use that spectrum absent 
satisfaction of the condition.
    Mr. Turner. 9. LightSquared's business plan calls for providing 
service to 260 million people by 2015. If LightSquared limited its 
network operations to its ``lower 10'' proposal, including lower power 
levels, how much of its business plan does it achieve? Does it need 
both the ``lower 10'' and ``upper 10'' megahertz bands to realize full 
coverage of 260 million people?
    Mr. Knapp. 9. LightSquared is best positioned to answer questions 
concerning the implementation of its business plan.
    Mr. Turner. 10. Part of this proposal is a ``standstill'' on the 
use of the upper 10 MHz spectrum. What is a ``standstill'' and how 
would it work?
    Mr. Knapp. 10. See my answer to Question 8, above.
    Mr. Turner. 11. It has been said by the FCC, including the 
Chairman, that the FCC handles interference issues all the time, so we 
can trust it to handle this one. This is a troubling statement, as it 
seems to be suggesting that this case is a routine matter.
    a. I have to ask, is it routine for the Deputy Secretary of Defense 
to warn the FCC two weeks before it takes an action that that action 
``has strong potential for interference to . . . critical National 
Security Systems''?
    b. Is it routine for the Deputy Secretary of Defense to have to 
have to say to the FCC that it and another Department ``were not 
sufficiently included in the development of . . . [a] work plan and its 
key milestones'' and that ``we are concerned with this lack of 
inclusiveness regarding input from federal stakeholders''?
    c. We've been told that bureaus are permitted to grant waivers of 
the Commission's rules instead of initiating a rulemaking where a 
waiver will serve the public interest and good cause has been shown. 
Please explain the ``public interest'' or ``good cause'' where 
significant national security concerns were known two weeks before the 
waiver was issued by the FCC on January 26th.
    Mr. Knapp. 11a. The Commission takes all concerns about the 
potential for harmful interference seriously, especially those 
involving public safety, national security, and defense. Indeed, the 
Commission has successfully resolved many issues in the past where the 
Department of Defense initially raised concerns about harmful 
interference. The radio spectrum is a crowded and complex environment, 
and changes in the use of any particular band of frequencies often lead 
to disagreements about the potential for interference, including from 
the Executive Branch. A review of the U.S. Table of Frequency 
Allocations (available at http://www.ntia.doc.gov/osrnhome/
allochrt.html) gives a visual illustration of why we continually engage 
other Government entities in discussions about this issue and why the 
Memorandum of Understanding with NTIA exists. NTIA manages Federal 
spectrum and is advised by the Interdepartment Radio Advisory Committee 
(IRAC). Among the members of IRAC are DOD, DOE, NASA, DOT, and the 
State Department. DOD often raises concerns about spectrum matters in 
this forum, and NTIA takes these concerns, along with other 
considerations, into account in its deliberations with the Commission 
on any spectrum proceedings that could affect Federal operations.
    11b. The January Order established a process that called for 
LightSquared to form a Technical Working Group including all interested 
parties and representatives of the Federal Government. The Commission 
coordinated the Order with NTIA and the Federal agencies so they were 
aware of this process, and they were encouraged to participate. The 
Department of Defense and the other Federal agencies with GPS interests 
participated in the Technical Working Group. At the time that the 
Department of Defense raised its concern about the test plan in March, 
it believed that the process was moving too quickly and it had not been 
provided sufficient opportunity to shape the test plan. We contacted 
the interested parties to ensure that these concerns were addressed. In 
addition to the report submitted by the Technical Working Group, 
Federal agencies conducted their own tests under the auspices of the 
National Positioning, Navigation & Timing (PNT) Engineering Forum 
(NPEF) that were submitted to the FCC by the NTIA and were inserted in 
the public record for comment.
    11c. The Commission's staff acted responsibly by taking the unusual 
step of preventing LightSquared from deploying its network until 
concerns about potential harmful interference could be resolved. Prior 
to that point, and based on its current license, LightSquared could 
have deployed its terrestrial base stations, as long as its handsets 
included dual satellite and terrestrial capabilities, instead of 
singular terrestrial capabilities. The staff's waiver condition 
addresses this issue. The waiver standard for all Commission activities 
is longstanding and dates to 1972. See WAITRadio v. FCC, 418 F.2d 1153, 
1159 (D.C. Cir. 1969), cert. denied, 409 U.S. 1027 (1972).
    Mr. Turner. 12. The FCC has attempted to assure Congress all along 
the way, including in the Public Notice dated September 13, 2011, that 
it won't permit any national security harm. What does that mean? How 
will that be enforced? Does this mean General Shelton, the general 
officer in charge of assuring GPS reliability and effectiveness, will 
have to give a thumbs up to any final action with respect to 
LightSquared? If not, why not?
    Mr. Knapp. 12. The Commission's January 26, 2011, Order 
specifically stated that LightSquared may not deploy commercial service 
until concerns of harmful interference to GPS have been resolved. The 
Commission is working pursuant to its MOU with NTIA to determine 
whether LightSquared' s proposal can satisfy this requirement. The 
testing and evaluation process remains ongoing pursuant to the 
September 13, 2011, Public Notice. NTIA currently is analyzing the 
results of tests designed to gauge whether LightSquared's proposed 
network will interfere with the operation of GPS receivers in 
cellphones, car navigation systems, and other consumer-oriented devices 
used for marine and outdoor recreation activities.
    NTIA also will review the results of separate tests planned for UPS 
receivers used for high-precision and timing applications. Those tests 
will include GPS devices modified with new filtering technology that 
LightSquared and other companies have said will solve interference and 
would need to be added to existing GPS devices.
    The Commission deals directly with NTJA, which represents the 
Executive Branch on spectrum management and negotiates on behalf of the 
Federal agencies. Under the MOU, the Commission will continue to work 
with NTIA directly to resolve this matter. The Department of Defense 
and General Shelton will have the opportunity to continue to work with 
the NTIA to ensure that his concerns about interference are adequately 
addressed through the longstanding and consultative process. It should 
be noted, however, that we have reached out to individual agencies, 
including DOD, to discuss their concerns.
    Mr. Turner. 13. Can you tell us if the FCC has discussed with 
LightSquared whether it will include technology by two firms linked to 
the Communist Chinese People's Liberation Army, Huawei and ZTE Corp., 
in this 4G nationwide network, assuming it is approved in some 
configuration? Will you please take this back to LightSquared and 
provide a written response to this Committee for the record of the 
hearing?
    Mr. Knapp. 13. The Commission's Public Safety and Homeland Security 
Bureau and Office of Legislative Affairs have been working closely with 
the appropriate congressional offices to ensure that they are aware of 
the FCC's role in addressing telecommunications equipment importation 
issues. Questions related to LightSquared's vendor selections are best 
directed to LightSquared.
    Mr. Turner. 14. LightSquared would operate in a different part of 
the spectrum (1525-1559 megahertz) than GPS (1559-1610 megahertz). Why 
is there an interference problem when the two systems would operate in 
different, but neighboring, parts of the spectrum?
    Mr. Knapp. 14. Out-of-band interference and in-band interference 
may occur when two systems operate in adjacent spectrum allocations. 
These two forms of interference have been raised in the context of the 
LightSquared matter.
    Out-of-band emission limitations ensure that a licensee's signal 
does not bleed into the other frequency band and cause interference to 
receivers in the adjacent band. The Commission fully considered the 
issue of out-of-band emissions into the GPS band during the 2001-2005 
rulemakings. At that time, the Commission adopted the out-of-band 
emissions limits recommended by the GPS industry and the NTIA. As noted 
in the timeline set out to Question 3, the GPS industry raised concerns 
about ``out-of-band'' emissions from indoor consumer terminals as a 
potential problem during the SkyTerra-LightSquared transfer of control 
process but told the Commission in a 2009 letter that these concerns 
had been resolved.
    In-band interference can cause ``receiver overload.'' This type of 
interference occurs when a receiver that is intended for reception in 
one band picks up signals in an adjacent band. In the current case, the 
primary issue is that GPS receivers will experience ``receiver 
overload'' because they do not have sufficient capability to reject 
signals legally transmitted in the adjacent mobile satellite band from 
LightSquared's high power base stations.
    The FCC does not regulate receivers. As discussed in Question 3, 
the Commission typically addresses interference issues by setting 
parameters for transmitters to ensure that they do not emit excessive 
energy into frequency bands used by other services and relies on 
equipment manufacturers, service providers, and other stakeholders to 
ensure their receivers comply with those technical parameters.
    It should be noted that other testimony in this hearing suggested 
that a change in LightSquared's business plan in late 2010 created the 
receiver overload issue. To correct the record, LightSquared's ATC 
business plan is based on the FCC's original MSS/ATC rules and on 
LightSquared's 2004 authorization. LightSquared's planned terrestrial 
deployment was described plainly in the Commission's March 2010 Order 
authorizing the transfer of control from SkyTerra to Harbinger. 
Concurrently, the March, 2010 Order that modified LightSquared's 
authorization to provide terrestrial service applied technical and 
operational conditions to address concerns raised by commenters.
    LightSquared's waiver request in November 2010 sought authority to 
operate on the same channels, with the same network, and at the same 
power levels, as currently authorized for ATC and required under the 
March 2010 Order, but serving some handsets designed for solely 
terrestrial service, rather than dual-mode (terrestrial and satellite) 
communications. The radio frequency environment affecting GPS is 
technically identical whether the handsets served by LightSquared's 
network have the ability to provide terrestrial or combined 
terrestrial-satellite operations.
    Mr. Turner. 15. The reviews undertaken suggest that there are 
certain UPS applications that, even with modification or complete 
redesign, would still not be able to perform their current mission in 
the presence of such network broadcasting directly adjacent to the GPS 
L1 Band. What applications?
    Mr. Knapp. 15. The Commission's September 13, 2011, Public Notice 
states that further targeted testing will focus on the lower 10 MHz 
channel. Since the testing and evaluation and review process is still 
ongoing and the Commission's record remains open, I cannot predict the 
outcome of that process.
    Mr. Turner. 16. Is LightSquared allowed to build out a terrestrial 
network today? What are the limitations, if any? Under what 
circumstances could/would buildup be stopped? Assuming FCC provides 
authorization for LightSquared to move forward with its deployment 
plans, as outlined in its November 2010 filing, how would this build-
out affect military systems and users in the near-term?
    Mr. Knapp. 16. Until the Commission issued its conditional waiver 
in the January 26, 2011, Order, LightSquared had authority to build out 
its network as long as the handsets served by its network had dual-mode 
terrestrial and satellite capability. LightSquared's November 18, 2010 
filing requested permission to allow wholesaler customers of 
LightSquared's network capacity to offer their retail customers 
terrestrial-only handsets. As noted earlier, as a condition of the 
waiver, LightSquared was required to maintain a competitive mobile 
satellite service and to develop dual-mode MSS-ATC mobile terminals 
that would be available at retail.
    The Order took the unusual and stringent step of stopping 
commercial deployment until all harmful interference issues raised in 
the comment period were resolved. The harmful interference concerns 
raised in December 2010 involved receiver overload problems. The 
Commission's Order in January 2011 states that no deployment is 
permissible absent the resolution of harmful interference concerns. 
This requirement includes protection for military systems and users.
    Mr. Turner. 17. Are FCC and the NTIA looking at other parts of the 
spectrum for possible LightSquared operations?
    Mr. Knapp. 17. The FCC is not, and there have been no such 
discussions with NTIA.
    Mr. Turner. 18. DOD briefings to the committee suggest that the 
part of the L-Band spectrum in question was intended primarily for 
space-to-ground transmissions. Can you explain the history here and why 
decisions were made to allow significant terrestrial transmissions in 
this band?
    Mr. Knapp. 18. My answer to Question 3 provides a timeline that 
illustrates the historical background of this matter. To summarize, as 
early as 2001 the Commission proposed to permit ancillary terrestrial 
service in the mobile satellite spectrum. In 2003, the Commission 
permitted mobile satellite service (MSS) licensees to integrate 
ancillary terrestrial components (ATC) into their satellite networks to 
provide mobile service to areas where the satellite signal is degraded 
or blocked (i.e., urban areas and into buildings). The Commission 
determined in 2003 that this change in policy would encourage 
innovative techniques and better services. In 2004, SkyTerra, the 
predecessor to LightSquared, was given ATC authorization, which 
provided for expansive ancillary authority, including authorization to 
deploy thousands of terrestrial base stations to provide terrestrial 
services on its authorized satellite spectrum.
    Mr. Turner. 19. Does LightSquared need to submit a formal 
modification to its November 2010 application outlining its ``lower 
10'' proposal? If not, how will the Federal agencies have sufficient 
information about the details of its revised plans to provide 
assessments on potential interference? Does LightSquared's June 30, 
2011, submission to the FCC provide sufficient information on its 
``lower 10'' proposal for your organizations to determine whether the 
proposal mitigates GPS interference?
    Mr. Knapp. 19. LightSquared has not requested a modification to its 
authorization, and the Commission's record is open on this issue. I 
believe that sufficient information has been submitted for parties to 
evaluate LightSquared's proposals, and whatever provisions are 
necessary to avoid causing harmful interference can ultimately be 
included in any modification to its authorization.
    The Commission's September 13, 2011, Public Notice indicates that 
further targeted testing related to the lower 10 MHz channel is 
necessary in conjunction with the written request of NTIA and in 
compliance with the January 2011 Order. NTIA is appropriately 
positioned to take into account Federal agency concerns about harmful 
interference to GPS. Under the MOU, the Commission will continue to 
work with NTIA and other interested agencies to resolve this matter.
    Mr. Turner. 20. How are DOD comments and concerns addressed at this 
point in the process?
    Mr. Knapp. 20. NTIA represents Federal spectrum users, including 
DOD. Under the long-standing MOU and as noted in the January 26, 2011, 
Order, the Commission will work with NTIA to resolve all Executive 
Branch concerns about interference issues. In this instance, we also 
have engaged in direct discussions with all affected agencies, 
including DOD.
    Mr. Turner. 21. Section 911 of H.R. 1540, the FY11 National Defense 
Authorization Act, provides that the conditional waiver for 
LightSquared issued by the FCC on January 26, 2011, may not he lifted 
until ``the Commission has resolved concerns of widespread harmful 
interference by such commercial terrestrial operations to the Global 
Position System devices of the Department of Defense.'' How would the 
Commission comply with this provision? Please be specific.
    Mr. Knapp. 21. Section 911's language is consistent with the 
Commission's January 26, 2011, Order. As stated in the Order, the 
Commission is not permitting LightSquared to deploy commercial service 
until the resolution of harmful interference issues.
    Mr. Turner. 22. In April of this year the Commission issued a 
Report and Order where it reallocated portions of the 2 GHz spectrum 
from primary Mobile Satellite Service (MSS) to coprimary MSS and Fixed 
Mobile uses. This reallocation increased the amount of spectrum 
available for terrestrial mobile broadband operations by a significant 
40 MHz. Why did the Commission not undertake a similar reallocation 
with the L-Band spectrum that is the subject of the LightSquared 
conditional waiver of the MSS Ancillary Terrestrial Component (ATC) 
gating rules? Are the results of these two processes not effectively 
the same when it comes to the amount of mobile broadband spectrum being 
made available?
    Mr. Knapp. 22. The circumstances for the L-Band are different from 
those for the 2 GHz MSS spectrum, which accounts for why they were 
handled differently. LightSquared shares the L-Band spectrum with 
Inmarsat. Both LightSquared's and Inmarsat's spectrum was fragmented 
into narrow slices. Consistent with Commission policies to encourage 
satellite licensees to cooperate in their use of the spectrum, 
LightSquared reached an agreement to fund the reorganization of 
Inmarsat's spectrum to better enable deployment of LightSquared's 
integrated satellite and terrestrial service. In short, this was a 
situation that only the two parties could resolve.
    In contrast, the 2 GHz MSS spectrum is authorized to licensees in 
contiguous blocks so there was no need to untangle use of the spectrum 
by multiple licensees. The Commission's April 2011 order was largely a 
ministerial action. The Commission modified the Table of Frequency 
Allocations to add a co-primary Fixed and Mobile allocation to the 2 
GHz MSS band to make it consistent with the International Table of 
Allocations. This action for the 2 GHz band laid the groundwork for 
more flexible use of the band, including for terrestrial broadband 
services, in the future. See ET Docket No. 10-142, Report and Order, 26 
FCC Rcd. 5710.
    Substantive changes to the Table of Frequency Allocations are 
generally made through the rule making process. Since there is no 
international fixed and mobile allocation for the L-Band, the 
Commission did not propose to change the allocations for this spectrum 
and rule making was not required.
    The Commission has received requests from Dish Network for approval 
of a transaction to transfer the licenses for the existing 2 GHz MSS 
spectrum and grant a waiver to deploy terrestrial service under 
conditions similar to LightSquared. The Commission has not detennined 
how it will address these requests. The Commission has put Dish's 
proposed transaction and waiver requests out for public comment, and 
that proceeding remains open.
    Mr. Turner. 23. Is it not FCC policy enshrined in several orders 
absolutely to prevent un-integrated terrestrial service in the MSS 
band, and to ensure that any ATC offered is compatible with co-coverage 
MSS? If that isn't the policy, when did the policy change?
    Mr. Knapp. 23. LightSquared has never proposed to provide un-
integrated terrestrial service in the MSS band. LightSquared continues 
to integrate its services and grow its satellite-based services. For 
instance, using MSAT-1 and MSAT-2, LightSquared provides voice and low-
speed data services to customers for various applications, including 
(1) land-based applications (e.g., voice, asset tracking); (2) maritime 
applications; and (3) Government applications (e.g., disaster relief). 
These services are available in North and Central America, the 
Caribbean, Hawaii and coastal waters.
    LightSquared's satellite system currently serves Federal, state, 
and local agencies involved in public safety and emergency response 
operations, including organizations such as the Federal Emergency 
Management Agency, the Coast Guard, and local fire and police 
departments. LightSquared also provides fleet management and other 
services to the transportation and natural resources industries. 
LightSquared also has entered into an agreement with the Indian Health 
Service of the U.S. Department of Health and Human Services to provide 
satellite service to American Indian and Alaska Native communities 
until 2020.
    The waiver granted to LightSquared is based on existing Commission 
policy and a 2005 Order related to its number of base stations and 
power levels, as well as the language in the 2010 Order permitting the 
transfer of control from SkyTerra to LightSquared. In granting 
LightSquared's proposal and the waiver request, the International 
Bureau considered several factors demonstrating an integrated satellite 
and terrestrial service: (1) LightSquared's provision of substantial 
satellite service in the L-Band; (2) its ongoing efforts to coordinate 
with other L-Band operators and make substantial investments to 
rationalize operations in the L-Band to enable use of this spectrum for 
both MSS and ATC broadband services; (3) the steps it has taken to 
promote dual-mode satellite/terrestrial devices; and (4) its deployment 
of a 4G satellite/terrestrial network in the L-Band pursuant to unique 
and substantial terrestrial build out requirements. The Bureau 
determined that these factors together satisfied the integrated service 
requirement for ATC, which applies to LightSquared as well as other MSS 
providers.
    Mr. Turner. 24. When LightSquared filed its request to provide 
terrestrial-only mobile broadband services in November 2010, was the 
Commission aware of the GPS receiver overload problem?
    <bullet>  If not, when did the Commission first become aware of 
this problem?
    <bullet>  Was it ever addressed in the context of the various MSS 
ATC rulemakings and licensing orders?
    Mr. Knapp. 24. Please see my answer to Question 3, above, for a 
thorough history of this matter. I first became aware of the receiver 
overload issue in December, 2010, although I have learned that GPS 
filed comments that mentioned possible overload interference and 
mitigation in September, 2010. Also, to clarify and as discussed in my 
response to Question 23, above, LightSquared will provide integrated 
satellite and terrestrial services on a wholesale basis. It will not 
provide terrestrial-only service.
    Mr. Turner. 25. The L-Band and 2 GHz MSS licensees did not pay 
upfront fees for their use of valuable spectrum. When they operate in 
ATC mode, especially if the gating rules are waived and they are 
allowed to operate within their assigned MSS spectrum in terrestrial-
only mode, in effect they will be providing a service identical in 
nature to that provided by the terrestrial carriers.
    <bullet>  Is it fair that the MSS spectrum users in ATC mode will 
not have paid for use of their spectrum, when others such as ATT and 
Verizon were required to spend billions of dollars for access to their 
spectrum?
    <bullet>  Does this disparity not skew the market and place the 
terrestrial carriers at a disadvantage? Were the gating rules not 
adopted in large part to avoid this disparity? Please explain.
    Mr. Knapp. 25. The assumption that terrestrial providers such as 
AT&T and Verizon paid the Government for all of the spectrum they use 
is mistaken. Prior to the implementation of the Budget Reconciliation 
Act of 1993, entities receiving FCC licenses did not pay the Government 
for the value of their spectrum. Licenses were assigned through a range 
of methods, including comparative hearings and lotteries. AT&T and 
Verizon hold licenses from the pre-auction period, although they have 
expanded their networks since that time and acquired spectrum through 
the auction process.
    LightSquared's predecessor in interest (SkyTerra) obtained its 
licenses in 1995 and assigned them to Harbinger in 2010 in a financial 
transaction in which Harbinger paid $1.8 billion. At the time of the 
initial licensing process, the Orbit Act forbade the auction of MSS 
spectrum.
    Mr. Turner. 26. The National Positioning, Navigation & Timing (PNT) 
Engineering Forum (NPEF) report recommends that the U.S. Government 
should ``conduct more thorough studies on the operational, economic and 
safety impacts of operating the LightSquared Network.'' What additional 
studies and analysis do your organizations (or, you in your 
professional opinion) believe need to be conducted and why?
    Mr. Knapp. 26. The Commission's September 13, 2011, Public Notice 
calls for additional targeted testing and adopts by reference the 
NTJA's letter concerning additional testing requirements. NTIA 
currently is analyzing the results of tests designed to gauge whether 
LightSquared's proposed network will interfere with the operation of 
GPS receivers in cellphones, car navigation systems, and other 
consumer-oriented devices used for marine and outdoor recreation 
activities.
    NTIA also will review the results of separate tests planned for GPS 
receivers used for high-precision and timing applications. Those tests 
will include UPS devices modified with new filtering technology that 
LightSquared and other companies have said will solve interference and 
would need to be added to existing GPS devices.
    Mr. Turner. 27. There appears to be a tension between national 
space policy, which seeks to mitigate harmful interference to UPS, and 
national broadband policy, which in this particular case, would cause 
harmful interference to UPS. How do we reconcile these two policies?
    Mr. Knapp. 27. I do not believe that the two policies are in 
conflict. Rather, one of the goals in the interference-resolution 
process has been to bring all of the parties together to develop 
engineering solutions. From an engineering standpoint, I believe that 
technical and operational solutions will bring closure to this matter.
    Furthermore, the 2004 Presidential Policy on Position, Navigation 
and Timing (PNT Policy) states that the United States shall, among 
other things, ``improve the performance of space-based positioning, 
navigation, and timing services, including more robust resistance to 
interference for [emphasis added], and consistent with, U.S. and allied 
national security purposes, homeland security, and civil, commercial, 
and scientific users worldwide,'' which is consistent with the 2010 
National Space Policy stating that the United States will ``support 
international activities to detect, mitigate, and increase resiliency 
to harmful interference to GPS'' [emphasis added].

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
